<html>
<title> - POPULATION CONTROL IN CHINA: STATE-SPONSORED VIOLENCE AGAINST WOMEN AND CHILDREN</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 

                      POPULATION CONTROL IN CHINA:
                       STATE-SPONSORED VIOLENCE 
                       AGAINST WOMEN AND CHILDREN

=======================================================================

                                HEARING

                               BEFORE THE
                               
              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 30, 2015

                               __________

 Printed for the use of the Congressional-Executive Commission on China
 
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


         Available via the World Wide Web: http://www.cecc.gov
         
                               ___________
                               
                    U.S. GOVERNMENT PUBLISHING OFFICE
94-474 PDF              WASHINGTON : 2015                    

________________________________________________________________________________________           
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d1b6a1be91b2a4a2a5b9b4bda1ffb2bebcff">[email&#160;protected]</a>  
           
             
             
             
             
             
             CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS




  House                                   Senate

CHRIS SMITH, New Jersey, Chairman    MARCO RUBIO, Florida, Cochairman
ROBERT PITTENGER, North Carolina     SHERROD BROWN, Ohio
TRENT FRANKS, Arizona                DIANNE FEINSTEIN, California
RANDY HULTGREN, Illinois             JEFF MERKLEY, Oregon
TIM WALZ, Minnesota                  GARY PETERS, Michigan
MARCY KAPTUR, Ohio
MICHAEL HONDA, California
TED LIEU, California

                     EXECUTIVE BRANCH COMMISSIONERS

                 CHRISTOPHER P. LU, Department of Labor
                   SARAH SEWALL, Department of State
                STEFAN M. SELIG, Department of Commerce
                 DANIEL R. RUSSEL, Department of State
                  TOM MALINOWSKI, Department of State

                     Paul B. Protic, Staff Director

                 Elyse Anderson, Deputy Staff Director

                                  (ii)
                             
                             CO N T E N T S

                              ----------                              

                               Statements

                                                                   Page
Opening Statement of Hon. Christopher Smith, a U.S. 
  Representative from New Jersey; Chairman, Congressional-
  Executive Commission on China..................................     1
Franks, Hon. Trent, a U.S. Representative from Arizona...........     3
Hultgren, Hon. Randy, a U.S. Representative from Illinois........     5
Eberstadt, Nicholas, Henry Wendt Scholar in Political Economy, 
  American Enterprise Institute..................................     6
Hudson, Valerie M., Professor and George H.W. Bush Chair, Bush 
  School of Government and Public Service, Texas A&M University 
  (via Skype)....................................................     9
Littlejohn, Reggie, Founder and President, Women's Rights Without 
  Frontiers......................................................    14
Pittenger, Hon. Robert, a U.S. Representative from North Carolina    19
Chai, Ling, Founder, All Girls Allowed...........................    19
Chen, Guangcheng, Distinguished Fellow in Human Rights, Simon 
  Center on Religion and the Constitution, Witherspoon Institute; 
  Distinguished Visiting Felllow, Institute for Policy Research 
  and Catholic Studies, Catholic University (via Interpreter 
  James Cheng)...................................................    23

                                APPENDIX
                          Prepared Statements

Eberstadt, Nicholas..............................................    36
Hudson, Valerie M................................................    58
Littlejohn, Reggie...............................................   101
Chai, Ling.......................................................   105
Chen, Guangcheng.................................................   117

Smith, Hon. Christopher, a U.S. Representative from New Jersey; 
  Chairman, Congressional-Executive Commission on China..........   118
Rubio, Hon. Marco, a U.S. Senator From Florida; Cochairman, 
  Congressional-Executive Commission on China....................   120

                       Submission for the Record

Witness Biographies..............................................   122


POPULATION CONTROL IN CHINA: STATE-SPONSORED VIOLENCE AGAINST WOMEN AND 
                                CHILDREN

                              ----------                              


                        THURSDAY, APRIL 30, 2015

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 2:04 p.m., 
in room 2175, Rayburn House Office Building, Representative 
Christopher Smith, Chairman, presiding.
    Also present: Representatives Trent Franks, Randy Hultgren, 
and Robert Pittenger.

      OPENING STATEMENT OF HON. CHRISTOPHER SMITH, A U.S. 
    REPRESENTATIVE FROM NEW JERSEY; CHAIRMAN, CONGRESSIONAL-
                 EXECUTIVE COMMISSION ON CHINA

    Chairman Smith. The Commission will come to order. I want 
to wish you all a good afternoon.
    Today's hearing will examine the looming demographic, 
economic, and social problems associated with China's one-child 
policy and seek recommendations on how the international 
community can assist China to address that.
    China's one-child policy is state-sponsored violence 
against women and children, including and especially the girl 
child, and constitutes massive crimes against humanity.
    With us today is a distinguished panel, all of whom have 
made major contributions to combating these crimes against 
women and in defense of those who have been victimized, whether 
it be men, women, or children, as a result of this policy.
    With us today is Chen Guangcheng, the Chinese legal 
advocate who was jailed for five years for trying to protect 
women facing forced abortions and sterilizations. In his 
testimony, Chen absolutely gets it right. He calls China's 
course of population planning policies ``genocide.'' He calls 
for an international tribunal to investigate these crimes 
against humanity and calls on the administration to enforce 
existing U.S. law and bar Chinese officials from coming to the 
United States.
    In 2000, I wrote the law. It's called the Admiral Nance-Meg 
Donovan Foreign Relations Act for fiscal years 2000 and 2001. 
The bill was signed into law on November 29, 1999. Section 801 
of Title VII of that Act requires the Secretary of State not to 
issue any visa to, and the Attorney General not to admit to the 
United States, any foreign national whom the Secretary finds, 
based on credible evidence, has been directly involved in the 
establishment of forced abortions or forced sterilizations.
    To the best of my knowledge, under President Obama, almost 
no one--we can't find anyone who has been rendered 
inadmissible. Thus, it has been a gross failure of the Obama 
administration not to enforce existing law, particularly on 
those in China who so brutally violate women's rights.
    The one-child policy will soon mark its 35th sad 
anniversary. That's 35 years of telling couples what their 
families must look like, 35 years of forced and coerced 
abortions and sterilizations, 35 years of children viewed by 
the state as excess baggage from the day that they were 
conceived.
    The human rights violations associated with this policy are 
massive. We have only recently begun to fully understand the 
demographic consequences of what that could mean for China, for 
China's neighbors, and for the rest of the world.
    Just over a year ago, China announced a slight change to 
the policy, allowing couples in which one parent is the only 
child to have two children. The announcement was followed by a 
tidal wave of international media coverage trumpeting that 
relaxation of China's one-child policy and speculating that the 
policy was on the way out. That has not happened. The policy 
change was only minimal and was grossly inadequate in light of 
the coercion the Chinese Government has employed for three 
decades against women and children.
    Left unchanged is the Chinese Government's stranglehold on 
deciding who can have children, when they can have children, 
and how many children a family can have. Left unchanged are the 
coercive measures and the ruinous fines that can be taken if a 
women is found to be carrying a child without permission. Let's 
not forget, one needs to get a birth-allowed certificate in 
order to carry a child, otherwise the child is illegal. 
Brothers and sisters, as we all know, are illegal throughout 
all of China.
    Left unchanged is the large bureaucracy that enforced, and 
continues to enforce, the policy of population control. In the 
1990s, I chaired a hearing with a woman who took the name of 
Mrs. Gao to protect her family back in China. She ran a program 
in the Fujian Province and she stood right there at the witness 
table and said by day I was a monster, by night I was a wife 
and mother of one child. She talked about how women, often in 
the ninth month of pregnancy, would be pleading with her in 
tears to allow them to continue and to have that child without 
injury or death. She said that is the reality.
    She said she had the ability to incarcerate family members. 
Not just the woman, not just her husband, but other family 
members to increase the pressure, the coercion so that she 
would succumb to a so-called voluntary abortion.
    The minimal changes also do nothing to address the three-
decade decimation of the female population. Tens of millions of 
women and girls are missing from the population, a policy that 
can only be accurately described as gendercide. The 
extermination of the girl child in society simply because she 
happens to be a girl is outrageous and a crime against 
humanity.
    I would also point out that Mira Visenstahl writes in her 
book, and very heavily documented, that in Asia there were 
about 160 million missing females. She points out that's 
roughly the number of all the women and girls living in the 
United States of America decimated from the Asia population, 
and China is leading the way, sadly.
    China's birth limitation policy continues to increase 
gender imbalance, making China a regional magnet for sex and 
bride trafficking of women from neighboring countries, such as 
Burma, Cambodia, Vietnam, Laos, and North Korea, and beyond. 
This is unacceptable. It's horrific, it's tragic, and it's 
absolutely wrong. We are waiting for the course of population 
planning policies to end, but where is the United Nations? 
Where is the Obama administration? AWOL.
    Yet, the Chinese Government continues to deny that there 
will be an end. Of course, ending the brutal policy would be 
the moral thing to do, and everyone is increasingly aware that 
ending this policy would also be in the Chinese Government's 
best interests.
    As the economists noted just last week, by 2025 nearly 1 in 
4 Chinese citizens will be over the age of 60. At the same 
time, China's working age population has shrunk in each of the 
past three years. These factors are likely to hurt not only the 
government balance sheets, but also economic growth in China. 
This should be of particular concern to the Chinese Communist 
Party, as economic growth is the primary source of their 
alleged legitimacy.
    The government should also be concerned about the 
dramatically skewed gender ratio. It may be fashionable for the 
media to write stories about leftover women, but I know, and 
I'm quite sure the Chinese Government knows, that its real 
problem is the young men--one estimate was 40 million, nobody 
knows the exact number--who will be unable to find wives in the 
coming years.
    The government should be concerned about this because they 
will have huge, huge dislocation and a lot of turmoil with its 
society that prides itself on harmoniousness.
    We continue to see an increase in human trafficking. Again, 
the magnet is caused by the lack of women, who have been 
brutally killed pursuant to the one-child-per-couple policy.
    Given its current realities, it's baffling that China would 
continue to implement its population control program. 
Absolutely baffling, and yet they do. This hearing is meant to 
shine additional light on it, get recommendations on what we 
ought to be doing to try to mitigate and hopefully end this 
egregious abuse of women and children.
    I'd like to yield to Mr. Franks, Trent Franks, Chairman of 
the Constitution Subcommittee of the Judiciary Committee and 
also the Chairman of the Caucus on Religious Freedom, and a 
great leader on behalf of human rights.

  STATEMENT OF HON. TRENT FRANKS, A U.S. REPRESENTATIVE FROM 
                            ARIZONA

    Representative Franks. Well, thank you, Mr. Chairman. I 
guess the quickest way for me to do this is to express my 
complete agreement with everything that Chairman Smith has 
said. I'm so grateful to all of you for being here. I have 
known every last one of you in some context in the past. I 
admire your courage and your humanity so deeply. I know 
sometimes it seems like the battle is unending, but you know 
that God sees your efforts and your work.
    And in the final analysis we all spend our time doing many 
different things, but when we are focused on trying to 
recognize the humanity of those in the shadows of life it is a 
worthwhile endeavor, almost no matter what our particular 
thrust really is.
    So I just appreciate you for remembering that we're all 
very briefly on this planet and life is a miracle of the most 
profound magnitude, and you're using it to try to help others 
hold onto that miracle as long as possible and in the most 
joyous way they can.
    I just have every conviction that the counsels of eternity 
will deem your efforts very worthwhile, so I want to just, 
again, express my gratitude to you. You know, as difficult as 
it all seems, I am convinced of two things: That someday the 
world is going to begin to understand the real matrix here, 
that apart from respect for innocent human life and the 
recognition of religious freedom and other foundational, core 
essences of who we are as human beings, that really life has no 
other real purpose of consequence. I think the world's 
beginning--they're going to understand that. I mean, if nothing 
else, the information age has a way of helping everyone get a 
close-up look.
    I'm convinced that as time goes along we're going to come 
to a realization within ourselves collectively that this is a 
big deal, this thing called life, and what we do that honors 
the Maker of life and those that are our fellow heirs of life 
are really all that matters.
    And then the other thing I would say to you that is one of 
the great encouragements to make always--when you see all the 
suffering and all the tragedy and you know that there are 
children this day for whom help will not come in time, those 
are hard, hard, harsh things: But if there's anything I am 
absolutely sure of, it is that the Lord of the universe hears 
the cries of every last one of these little children. He knows 
them by name and if time turns every star in heaven to ashes, 
that eternal moment of his deliverance will come to each of 
them someday. In the meantime, we do the best we can to be the 
good stewards of the moments we have to try to reach out to 
them.
    So, thank you. I could name every one of you here, but--
Reggie, I appreciate you. You're always in the middle of 
things. And Chai Ling, you're always--you know, we read about 
you all the time. And Chen, you're kind of a famous hero to all 
of us. Nicholas, I know you're sort of the brains of the outfit 
sometimes, and I appreciate what you do. But more than anything 
else, just realize that it's your heart that goes before you 
and you are doing a good thing.
    I am honored to be here to see you and I hope that as time 
goes along we'll have more interaction. We're working really 
hard, as you know, here in the Congress to do some things. The 
Chairman is always in the middle of everything that we're 
doing. I'm glad to be able to be with you here. This man has 
been a hero of mine for I don't know how long, but we're about 
doing an important thing. Whether we succeed or fail, the 
effort is worth every moment we have. So, thank you, and God 
bless you.
    Thank you, Mr. Chairman.
    Chairman Smith. Chairman Franks, thank you very much. Thank 
you for your extraordinary leadership.
    We are joined by Randy Hultgren, who is finally out of the 
Chair. He was presiding all day yesterday in the Chair on the 
floor of the U.S. House of Representatives. I yield to the 
gentleman.

    STATEMENT OF RANDY HULTGREN, A U.S. REPRESENTATIVE FROM 
                            ILLINOIS

    Representative Hultgren. It's so good to be here. It's 
something that I'm very interested in and very passionate 
about, and so I'm here to learn as much as I can, to hear from 
you, but also to find out what we can do to make a difference. 
You absolutely are doing that already and we just want to come 
alongside and help and use whatever ability we have to be able 
to help. And even saving one life or one child or one young 
woman is all worth it, so that is my commitment.
    It's such an honor to be with a couple of my heroes as well 
on this Commission, Chairman Smith and Congressman Franks is a 
great friend and someone I look up to and want to emulate in 
however much time my constituents give me to serve them in this 
capacity. So thank you for being here, thank you for your work.
    With that, I'll yield back.
    Chairman Smith. Randy, thank you very much.
    I'd like to now introduce our distinguished panel. Each and 
every one of you are experts and have done yeoman's work. We 
will end with Chen Guangcheng batting cleanup because this is a 
man who has suffered immensely for his beliefs, and certainly 
Ling has suffered as well. But beginning first with Nicholas 
Eberstadt, who is the Henry Wendt Scholar in Policy Economy at 
the American Enterprise Institute.
    A political economist and demographer by training, he is a 
senior advisor to the National Bureau of Asian Research, and 
has served on the visiting committee at the Harvard School of 
Public Health, the Global Leadership Council at the World 
Economic Forum, and the President's Council on Bioethics. He 
has also served as a consultant to the World Bank, Department 
of State, U.S. Agency for International Development, and the 
Bureau of the Census.
    Without objection, yours, and all of everyone else's bios, 
full bios, will be made a part of the record.
    Valerie Hudson is a Professor and George H.W. Bush Chair in 
the Bush School of Government and Public Service at Texas A&M 
University. Her co-authored book, ``Bare Branches, Security 
Implications of Asia's Surplus Male Population,'' received two 
national book awards and widespread media coverage for its 
unique insights into the possible consequences of Asia's gender 
imbalance.
    Dr. Hudson has developed a nation-by-nation database on 
women, the WomenStats Project, to facilitate empirical research 
on the status of women globally. She is founding editorial 
board member of Foreign Policy Analysis and serves on the 
editorial boards of Politics and Gender, and International 
Studies Review.
    Then we'll hear from Reggie Littlejohn, who is founder and 
president of Women's Rights Without Frontiers, a broad-based 
international coalition that opposes forced abortion and sexual 
slavery in China. Ms. Littlejohn is an acclaimed expert on 
China's one-child policy, having testified six times before the 
U.S. Congress, three times before the European Parliament, and 
presented at the British, Irish, and Canadian Parliaments as 
well.
    She has briefed officials at the White House, Department of 
State, United Nations, and the Vatican. Ms. Littlejohn also 
represented Chinese refugees in numerous political asylum 
cases.
    We will then hear from Chai Ling, who is founder of All 
Girls Allowed, a nonprofit organization which seeks to expose 
the injustices of China's one-child policy and rescue girls--
actually rescue them--and mothers in-country from gendercide.
    A leader in the 1989 Tiananmen Square student movement and 
among the most wanted by the Chinese dictatorship at the time 
and two-time Nobel Peace Prize nominee, she is founder of 
Jenzabar, a company that provides higher education software and 
management solutions and a co-founder of the Jenzabar 
Foundation which supports the humanitarian efforts of student 
leaders.
    Chai Ling also authored ``A Heart for Freedom,'' a memoir 
detailing her journey from a fishing village in rural China to 
Tiananmen Square, where we all remember her and praise her for 
her courage, and then on to America.
    Then finally, and batting cleanup for our witnesses, will 
be Chen Guangcheng, the legal advocate and activist. Blind 
since childbirth, Mr. Chen is from rural China where he 
advocated on behalf of people with disabilities and exposed and 
challenged abuses in population planning with officials, 
including forced abortions and sterilizations. He was 
imprisoned for his activism for four years, over four years, 
following two years of house arrest.
    Mr. Chen escaped confinement in a daring and almost 
unbelievable escape, where in 2012 he made his way to the U.S. 
Embassy and then came to the United States. He is currently a 
distinguished fellow in human rights at the Witherspoon 
Institute Center on Religion and the Constitution; a 
distinguished visiting fellow at Catholic University Institute 
for Policy Research and Catholic Studies; and a senior 
distinguished advisor to the Lantos Foundation for Human Rights 
and Justice.
    Mr. Eberstadt, if you could begin.
    [The witnesses' biographies appear in the appendix.]

STATEMENT OF NICHOLAS EBERSTADT, PH.D., HENRY WENDT SCHOLAR IN 
        POLITICAL ECONOMY, AMERICAN ENTERPRISE INSTITUTE

    Mr. Eberstadt. Chairman Smith, Members of Congress, 
distinguished co-panelists, and esteemed guests, it is a 
privilege to be invited to testify on the demographics of 
China's one-child-policy era, and if I might say it's a special 
honor to sit at the same table as Chen Guangcheng, who is one 
of modern China's towering human rights heroes.
    [Showing of slides]
    Mr. Eberstadt. With the assistance of this Power Point, I'm 
going to try to make four quick points about what we know and 
what we don't know concerning the demographics of China's one-
child policy.
    First, what we know. The unnatural imbalance between the 
numbers of baby boys and the number of baby girls that has 
emerged in China over the past 30 years is the consequence of a 
terrible collision between three huge social forces, between a 
ruthless son preference, declining fertility and sub-
replacement fertility, which adds a new freighting of gender 
outcome to each additional birth, and the advent of relatively 
reliable and inexpensive gender determination technology in the 
context of unconditional abortion.
    You can see from this graphic here, I believe, the strong 
correspondence between fertility levels and gender imbalance. 
The lower the fertility level, as estimated by the U.S. Census 
Bureau over the past generation in China, the higher, the more 
abnormal the distortion from what we would expect as a natural 
human balance between proportions of boys and proportions of 
girls.
    The missing piece here, of course, is sonography, is 
ultrasound. This graphic shows the estimated proportion of 
China's counties with access to ultrasonography. We can see 
that by the late 1980s, over 90 percent of China's counties 
were reported to have access to sonography. By no coincidence, 
the 1990s Chinese census shows the enormous increase in sex 
ratios at birth.
    Let me show you this one slide as well. It shows the sex 
ratios, the number of boys per 100 girls, by birth parity: 
first born, second born, third born, and so forth. You'll see 
that in the earlier Chinese censuses, the imbalance between 
baby boys and baby girls for first-born babies was relatively 
small. It was almost a biologically human ratio, whereas for 
second, third, and fourth births the ratio was absolutely 
impossible for any large human population. That's where sex-
selective abortion comes in.
    Yet in the most recent Chinese census, in the 2010 census, 
we see a sex ratio of birth for first-born children of about 
almost 114 boys reported for every 100 baby girls. In effect, 
sex-selective feticide in China appears to have been 
increasingly front-loaded with respect to birth parity. Fewer 
first-time parents than in the past are apparently willing 
nowadays to take their chances with biologically determined 
gender outcomes for their first-born child.
    Second, most international observers of Chinese demographic 
trends believe that the imbalance between baby boys and baby 
girls has stopped increasing in recent years and may actually 
be declining. Just the dimensions of this pause and/or decline 
are still a matter of considerable debate and uncertainty: a 
necessary, inescapable uncertainty given the basic data from 
China with which we have to work.
    The plain fact is that contemporary China does not have a 
vital registration system that provides accurate and 
comprehensive national data on annual births and deaths, and 
when one looks at contending alternative sources of data from 
China, the respective successive annual censuses or hospital 
birth records, or for children a little bit older, for children 
who are enrolling in school for the first time, we see 
tremendous discrepancies as this chart by the Census Bureau 
researcher Dr. Daniel M. Goodkind indicates.
    For some given birth years we have discrepancies of 10 
percentage points or more. That's not a trivial difference. 
This is also true when one looks at Chinese official census 
data for children born in particular birth years. Big 
discrepancies here as well.
    Why these big discrepancies? Because parents are not 
reporting their children. Why are they not reporting their 
children? There is a very strong incentive, under the one-
child-policy era, under the strictures of the one-child policy, 
not to report one's child. This tends to be true of girls, of 
course, but it also tends to be true of boys. This is an 
inescapable uncertainty in estimating the precise dimensions of 
the imbalance today, much less its future trajectory.
    Now, third, we have talked in the past about some of the 
consequences of the one-child policy, to the extent that it is 
demographically effective. We have talked about the sub-
replacement fertility consequences of shrinking labor force and 
population aging. One of the other consequences, to the extent 
it is effective, is the prospective creation of an army of 
unmarriageable men.
    In this work done by Chinese demographers, the projection 
is that men in their late thirties stand about a 25-percent 
chance of never getting married for those of the year 2030, and 
men in their late forties in 2030 stand about a 20-percent 
chance, this for a society where, until more or less yesterday, 
universal marriage was the norm and very widely the practice.
    But other changes in Asia, I think, are throwing a wild 
card into this situation, making it even more volatile. 
Throughout the rest of east Asia, we have seen what some 
demographers have called a ``flight from marriage'' by women, a 
tendency for women to postpone marriage or avoid marriage 
altogether.
    This typically has started out as an elite phenomenon in 
societies like Hong Kong and Taiwan, and, of course, also Japan 
and South Korea, in the big metropolises and within the most 
educated strata of women. But the elite fashion has ultimately 
turned out to be a mass norm in those societies.
    You'll see in this chart that China has yet really to enter 
into this flight, even though other countries of China's same 
income level had already evidenced this flight quite strongly.
    But what seems to be an incipient flight from marriage by 
women in China is now beginning. We can see that in this 
graphic, which shows the most recent Chinese census results. 
For the nation as a whole, this flight seems to have begun as 
of 2010 and, sure enough, it is most evident in Beijing today. 
That's the light blue bar there. And it is most evident within 
Beijing by the highest educated group of young women, and 
that's the green bar there.
    Just how fast the flight from marriage by women is going to 
proceed we cannot tell, but to the extent that it does proceed 
as it has in the rest of the east Asian rim, this will 
intensify the marriage squeeze and only further increase 
China's coming and pending army of unmarriageable men.
    If I could, I'd make one final point. While the human 
rights implications of China's one-child policy are well known 
and widely documented, the question of the program's actual 
demographic impact is rather less straightforward. We can note 
here that east Asian rim countries today exhibit some of the 
world's very lowest fertility levels and all of these in places 
that have never toyed with compulsory birth control.
    Japan has reported snapshot TFR, Total Fertility Rates, of 
under 1.3 births per woman per lifetime in some years. South 
Korea's, at times, has dropped below 1.2. In Chinese cultural 
venues like Taiwan and Hong Kong, it has dropped in some years 
below 1.0, less than one birth per woman per lifetime.
    So we may reasonably ask, has forcible population control 
accelerated modern China's fertility decline? Would fertility 
levels really be higher today without the program? Is it 
possible they'd be even lower? The simple truth of the matter 
is, we don't know. There are a number of methodological 
approaches we could take to pursuing that question.
    In my view, they strongly merit pursuit, not least so that 
we may have some sense in advance of the magnitude of the 
demographic responses that will be elicited when the one-child 
program is finally scrapped once and for all. Thank you.
    Chairman Smith. Thank you very much, Dr. Eberstadt.
    We're going now, by way of Skype, to Dr. Hudson, Valerie 
Hudson, who couldn't be with us in person but is doing it via 
Skype.
    Dr. Hudson?
    [The prepared statement of Mr. Eberstadt appears in the 
appendix.]

  STATEMENT OF VALERIE M. HUDSON, PH.D., PROFESSOR AND GEORGE 
H.W. BUSH CHAIR, BUSH SCHOOL OF GOVERNMENT AND PUBLIC SERVICE, 
                TEXAS A&M UNIVERSITY (VIA SKYPE)

    Ms. Hudson. Thank you. Are you able to hear me?
    Chairman Smith. Yes.
    Ms. Hudson. Great. Thank you to the distinguished members 
of the Commission for their invitation, and also for their 
attention to this extremely important problem. Also thanks to 
the other experts assembled who are outstanding in their 
respective fields and whose work has inspired my own.
    A final thank you to my co-author, who was kind enough to 
allow me to use a paper that we had written as the foundation 
for my remarks. Now, I want to warn you, that's a 43-page paper 
and I've been given approximately eight minutes to summarize 
that argument.
    I was asked to speak specifically on the topic of this 
paper, which was, what's going on with China's neighbors, 
specifically South Korea and Vietnam, the changes in those two 
countries, and what implications that might have for China's 
own demographic issues.
    Let me start out by saying that as China struggles to 
normalize its sex ratio, it's interesting to note that China is 
book-ended by two countries that have had vastly different 
birth-sex ratio trajectories: South Korea and Vietnam.
    In South Korea, a very abnormal birth-sex ratio was 
normalized over the course of approximately one decade. In the 
latter, Vietnam, a normal sex ratio of birth became profoundly 
abnormal over the course of less than one decade and threatens 
to become even more abnormal than that of China. Are there 
lessons for China from the experiences of these mismatched 
bookends? If you will, a note about son preference.
    As Nicholas Eberstadt has said, it's a ruthless type of 
force. Let me suggest that its foundations in the East Asian 
context are not dissimilar from those found in other regions. 
Its root is the organization of society along patrilineal 
lines. The vast majority of lineage-based groups traced descent 
through the patriline, practice patrilocal marriage, inherit 
land and property through the patriline.
    Patrilineality permits groups of male relatives bound by 
blood ties to become politically powerful and band together in 
allegiances when conflicts arise. However, in patrilineality, 
the most vulnerable family members are the women, whose role it 
is to reproduce the patriline.
    As sociologist Mark Weiner notes, ``the anti-individualism 
of the rule of the clan burdens each and every member of a 
patrilineal society, but most of all it burdens women. The fate 
of women lays bare the basic values of this rule and as 
outsiders, citizens of liberal states often find their own 
values clarified when they confront the lives these societies 
offer women.'' I think that was echoed in Representative 
Smith's opening remarks.
    So signs of patrilineality still enforced, despite the fact 
that we're in the 21st century, include prevalence of 
patrilocal marriage, it includes inequitable family law and 
customs, discrimination against women, and lastly, it denies 
property rights for women. Property rights in law are not the 
same as property rights in practice, which are often a very 
different kettle of fish.
    And, of course, we would suggest that those three factors 
may be present in societies where the sex ratio is not 
abnormal. Oftentimes what is needed is a catalyst for son 
preference to adopt its more ruthless face. Certainly one prime 
example of that catalyst in a patrilineally organized society 
is the enforcement of government limits on fertility.
    The one-child policy, now law in China, and the two-child 
policy of Vietnam are cases in point. As Nick Eberstadt has 
pointed out, when fertility is forcibly lowered by the state, 
son preference will turn into enactment of son preference, 
which is a euphemism for culling girls from the birth 
population.
    This is so because the typical family-level solution for 
not having a son is to continue to bear children until a son is 
forthcoming. If that solution is no longer an option for a 
family, some parents will select for a child of the male sex.
    Another catalyst which we will be speaking of in a 
patrilineally organized society is the government's decision 
whether to provide a meaningful old-age pension for all of its 
citizens. The old-age pension scheme in traditional patrilineal 
societies is sons. If the government decides to provide a 
substitute pension scheme, any perceived need to enact son 
preference will be profoundly undercut.
    So what I'd like to do now is go to a summary of our more 
elaborate and articulated case studies of South Korea and 
Vietnam, which I cannot present to you in the time allotted to 
me.
    Let's look first at South Korea. What we found in the South 
Korean case were several critical factors--and let me list 
those--in South Korea's ability to revert its sex ratio of 
birth from highly abnormal to normal.
    What we found was: (1) an enforcement of a ban on 
physician-provided prenatal sex identification, despite the 
fact of abortion being easily available in South Korea; (2) 
South Korea undertook a unique and profoundly meaningful attack 
on patrilineality. They dismantled its core structures, such as 
the notion of male household head and hoju, birth registry, 
family registry, and so forth, 
including those that buttressed patrilocal marriage; (3) the 
South Korean Government provided some form of old-age insurance 
to the bulk of the population, providing a substitute for the 
need to have a son to provide elder support.
    Next, South Korea did not enforce any type of fertility 
control policies and it should be noted, as Nick Eberstadt has 
pointed out, that the fertility rate dropped even despite the 
fact that there were no such limitations on fertility.
    Finally, urbanization and the decline of rural land as an 
important inheritance also changed the relative value of sons 
and daughters, as parents were then able to transfer goods and 
receive goods from both their daughters and sons on an equal 
basis.
    Let's turn to Vietnam. Vietnam is very puzzling. Given that 
it shares the same foundation of strong son preference with 
South Korea, the first half of the Vietnamese puzzle is why it 
took so long for son preference to turn into son preference 
enactment.
    After all, Vietnam also has a patriarchal system, staunch 
son preference, trends of economic and demographic 
modernization, strong family planning regulations, and easy 
access to abortion. Yet it was not until about 2002 that the 
sex ratio of birth of Vietnam began to be abnormal, really 
taking off like a rocket around 2005.
    Another part of the puzzle is that Vietnam was a Communist 
country and gender equality was enshrined in law from virtually 
the very beginning, but of course laws on the books and 
practice on the ground are two different things.
    Let's hit the highlights then of the Vietnamese case. 
Before I do, I'd like to note that just as in the South Korean 
case an increasingly abnormal birth sex ratio occurred in the 
context of steady economic development, and I want to return to 
that in my concluding remarks. All right.
    So the factors involved in Vietnam's trajectory of 
increasingly abnormal sex ratio of birth, no real enforcement 
of a ban on prenatal sex identification in a context where 
abortion is easily available, the Vietnamese Government made no 
effective legal attack on patrilineality, no real attempt to 
dismantle its core structures, and there was continued 
importance of land inheritance by sons in this society.
    The Vietnamese Government provided no real form of old-age 
insurance to the bulk of its population. Furthermore, it 
imposed a two-child policy, enforced by semi-coercive means. 
When that became law and punishments were affixed in 2005, 
that's when you see the sex ratio of birth really take off in 
Vietnam.
    Lastly, unlike South Korea, it's a predominantly rural 
country. Sixty-eight percent of the population is classified as 
rural, and so land still continues to have importance. All 
right.
    Concluding remarks. What can we learn from these case 
studies, as cursory as they have been? First, and this is 
extremely important, increasing wealth and increasing levels of 
education are irrelevant to the enactment of son preference.
    Eberstadt himself has said, as we have seen sudden steep 
increases in birth sex ratios, it is by no means inconsistent 
with continuing improvements in levels of per capita income and 
female education. South Korea's greatest rise toward 
abnormality in its birth sex ratio coincided with its greatest 
rise in GNP per capita and average level of education in the 
society.
    In similar fashion, Vietnam has also seen its birth sex 
ratios turn highly abnormal during the same time in which 
Vietnam became increasingly wealthy and increasingly educated. 
The same can be said of China and India. This finding is 
noteworthy.
    The assumption that sex ratios will naturally normalize 
over time as a country progresses in its development is 
completely unwarranted, in my estimation. The case studies of 
South Korea and Vietnam show that specific attention must be 
paid to the roots of son preference in order to deter a rise in 
the sex ratio at birth.
    I would also like to point out to the Commission that even 
though this is the year 2015, the list of countries with highly 
abnormal sex ratios is growing. It is not decreasing. In 
addition to Vietnam, we have countries such as Armenia, 
Azerbaijan, Georgia, Moldova, Albania, and others not 
necessarily within Asia, but even outside the Asian region, 
where this is becoming a great problem. Thus, this is not just 
a puzzle of the past or even of the present. This is a puzzle 
of the past, present, and the future and I think it's right 
that you're looking at this.
    Now, let me just give you our recommendations, we have a 
few, and then I'll wrap it up. Our first observation will be 
echoed by the remainder of the panel: catalyzing son preference 
enactment through coercive fertility limitation is catastrophic 
in terms of effects on the sex ratio. So Vietnam did not learn 
its lesson from China, and this was a great mistake on its 
part.
    Our second observation is that it is important that 
physicians be the target of punishment for any identification 
of fetal sex or provision of sex-selective abortion. Even now 
in the United Kingdom, which had not had a son preference 
enactment problem since the Middle Ages, just within the last 
year felt the need to create legal penalties for doctors for 
these very reasons.
    Our third conclusion is that it is insufficient to try to 
raise the status of daughters within the society by having 
large billboards that talk about how wonderful daughters are. 
In actuality, you have to reduce the value of sons. One of the 
most important ways that you do that is that you provide a 
system of old-age pensions so that sons are not the old-age 
solution for their parents.
    Last, something that South Korea did that neither Vietnam 
nor China has done is actually enforce gender-equal laws in 
inheritance, property rights, you name it, on their broader 
populations, especially in the rural areas. So patrilineality 
has continued unabated in Vietnam and China, freighting, as 
Nicholas put it, the preference for sons.
    In sum then, and I think that one last note is that it's 
also true that Vietnam is hemorrhaging women, not only at birth 
but also in the young adult cohort due to the massive export of 
brides to China, Taiwan, and South Korea because of those 
countries abnormal sex ratios. It is not just the sex ratio at 
birth that should concern policymakers in Ho Chi Min City.
    In sum, I hope this examination of China's mismatched 
bookends of South Korea and Vietnam has been instructive in 
helping to clarify what is and what is not causally linked to 
the enactment of son preference. As the list of nations 
enacting son preference lamentably grows longer, these insights 
may be of increasing importance over time.
    Thank you very much.
    Chairman Smith. Dr. Hudson, thank you so very much.
    There is a vote on the floor so my colleagues and I will 
have to leave. It's at zero time left, actually. But I do have 
a question and we'll leave the record open for a moment, if you 
wouldn't mind answering it, and then reconvene as soon as we 
come back from the votes.
    My question would be--you have done groundbreaking work in 
the area of what an increasingly male, increasingly gray 
population might have on a place like China in terms of 
violence and the possibility of war in order to project the 
chaos that is occurring in China. Thank you for your work and 
your comparison.
    Trent Franks, who just left, is the author of a bill in the 
House that got a majority vote last Congress to ban sex-
selection abortion in the United States. I met with the 
president of Azerbaijan in Baku and spent about half of my time 
with him, speaking to this disparity and this discrimination 
against the girl child inherent in sex-selection abortion, and 
urged him--pleaded with him--to defend the littlest girls that 
are being decimated in his country.
    So thank you. The fact that you point out ominously that 
this is a growing trend and not a contracting phenomenon is a 
very, very tragic, but reversible, policy that we need policies 
globally. So maybe you want to speak a little more on that 
while the record is open, and then we will have a brief recess 
as soon as you're done because I know you have to get on as 
well. I do have to vote. But if you could talk about the 
military side as well.
    Ms. Hudson. Yes. I wanted to note that the work of myself 
and my co-author, Andrea Den Boer, has been focused on trying 
to point out that there were clear security implications of 
creating a vast number of unmarriageable males within a 
society.
    I've often been tempted, in fact, to create a graphic--and 
maybe, Nick, you can lend me your graphic designer--and 
actually show the flow of women from various countries into 
China, into South Korea, Taiwan, other places that these 
nations are actually sucking in women from abroad even from 
nations such as Vietnam where there's abnormal sex ratios to 
begin with.
    Yet, despite drawing in these women, as Nick points out, 
estimates are still that 20 to 25 percent of the young adult 
population, male population in China, will not be able to find 
brides. It is also true, as Nick pointed out, that women at 
higher levels of education are not satisfied with what Chinese 
marriage looks like. It does not look like an equitable 
companion-type of relationship, but it looks like the old 
patrilineal style of marriage where women are subordinated in 
marriage.
    So despite the inflow of women, I think the sheer numbers 
of men who are unmarriageable in China, plus the growing 
rejection of patrilineal hierarchical style marriage by highly 
educated Chinese women means that I think China is in for a 
very rough ride in terms of instability over time.
    I think we already see that. We see, again, as Nick pointed 
out, the data is sketchy, but from what data we do have we have 
been able to show that sex ratios, in fact, are correlating 
with rises in violent crime in areas of China, and we've also 
noted the re-emergence of what we could call male coalitions, 
smuggling rings, black market purveyors of small arms, drugs, 
and prostitution, and so forth, that plagued historical China 
in the days, again, when there were very high sex ratios.
    Will this internal instability spill over and lead to 
regional effects? Possibly. We think that that is certainly 
something that happened in the past and it's something that 
might be anticipated in the future. Surely the Chinese 
Government is going to have to become even more authoritarian 
in order to control spiraling levels of internal instability 
caused by this large army, as Nick put it, this large number of 
unmarriageable men.
    For what stake in society have you given an unmarriageable 
man? In a patrilineal-based society, he has very little face, 
he will not have descendants for his family line. In terms of 
providing for his elderly parents, he may do that, but then 
there's no future. There's no future, no continuation of the 
family line over time. So this is a deeply distressing problem, 
I think, for the Chinese authorities.
    We know that they have been spending a lot of money 
commissioning studies on these men and what their proclivities 
are, where they're located, where they congregate, and so 
forth. So we know the Chinese authorities are aware of this 
issue. We know, as Representative Smith said, that there has 
been a slight tweaking of the one-child policy. There's been 
rampant talk of going to a two-child policy.
    Yet, demographers will tell you, the horse has left the 
barn. Those cohorts of young men have already been born and so 
the sex ratio of the young adult population of China is going 
to be abnormal for decades to come, even if the birth sex ratio 
was normalized tomorrow, which it will not be. So this is an 
abiding problem. I can't see anyone but myself, so I'm hoping 
that this is an appropriate place to stop speaking.
    Mr. Protic. Thank you, Dr. Hudson. As the congressman said, 
we're in recess for a few minutes.
    [Whereupon, at 2:54 p.m. the hearing was recessed.]
    [The prepared statement of Ms. Hudson appears in the 
appendix.]

                              AFTER RECESS


                              [3:16 p.m.]


    Chairman Smith. The Commission will resume its sitting. 
Again, I apologize to our witnesses and all of our guests for 
that delay. We don't expect any other votes until about 4:45, 
5:00, so we should be okay.
    I'd like to now introduce Reggie Littlejohn, and the floor 
is yours.

STATEMENT OF REGGIE LITTLEJOHN, FOUNDER AND PRESIDENT, WOMEN'S 
                    RIGHTS WITHOUT FRONTIERS

    Ms. Littlejohn. Honorable members of the Commission and 
distinguished fellow panelists, ladies and gentlemen, I am 
grateful for this opportunity to testify here today as we 
commemorate the 25th anniversary of China's one-child policy. I 
am very honored especially to be able to share a table with 
blind activist Chen Guangcheng because, as you know, I've been 
advocating for him since 2008 and you held, Congressman Smith, 
hearing after hearing after hearing to secure his release, and 
then to actually be able to testify with him is a great honor.
    I would also like to acknowledge the presence today of 
another great Chinese human rights hero, Dr. Teng Biao, who is 
here with us today. Dr. Teng Biao, as you may know, was part of 
Chen Guangcheng's team in 2005 when he was doing his 
groundbreaking work, together with his wife Yuan Weijing, 
another human rights hero. They are the ones that produced the 
report that got Chen Guangcheng in jail, and Dr. Teng Biao has 
been heroic in defending him and himself spent jail time on 
behalf of Chen Guangcheng. So I'm greatly honored to be 
testifying today.
    I have been asked to comment upon China's insistence on 
keeping the one-child policy, despite looming demographic 
concerns. China has not eased, has not relaxed, has not 
abandoned its one-child policy, despite reports to the 
contrary. China periodically tweaks its one-child policy. These 
minor modifications are routinely exaggerated.
    For example, under the misleading headline, ``China To Ease 
One-Child Policy,'' Xinhua News Agency reported that China 
would lift the ban on a second child if either parent was an 
only child, beginning on January 1, 2014. It was already the 
case that couples could have a second child if both parents 
were themselves only children. This minor adjustment did not 
ease the one-child policy, it merely tweaked it.
    The minor modification of the policy that took place on 
January 1, 2014, number one, did not affect a large percentage 
of couples in China; number two, was not subject to a time 
table in which implemented; number three, retained the dreaded 
birth intervals between children. If a woman got pregnant 
before the interval lapsed, she would be subject to forced 
abortion. Number four, most importantly, makes no promise to 
end the coercive implementation of the one-child policy.
    Noticeably absent from the Chinese Communist Party's 
announcement is any mention of human rights. Even though it 
will now allow some couples to have a second child, China has 
not promised to end forced abortion, forced sterilization, or 
coerced contraception. The coercive enforcement of China's one-
child policy is its core. Instituting a two-child policy in 
certain limited circumstances will not end forced abortion or 
forced sterilization.
    The problem with the one-child policy is not the number of 
children allowed, rather, it is the fact that the Chinese 
Government is telling people how many children they can have 
and enforcing that limit coercively through forced abortion and 
forced sterilization.
    Even if all couples were allowed to have two children, 
there is no guarantee that the Chinese Communist Party will 
cease their appalling methods of enforcement. Regardless of the 
number of children allowed, women who get pregnant without 
permission will be dragged out of their homes, strapped to 
tables, and forcibly aborted.
    Furthermore, instituting a two-child policy will not end 
gendercide. Indeed, areas in which two children are currently 
allowed are especially vulnerable to gendercide, and we have 
just heard from Dr. Valerie Hudson about the fact that when 
Vietnam had a two-child policy the gender ratios zoomed up.
    So I expect, over the next several years, that the Chinese 
Government will probably announce that they are instituting a 
two-child policy and that will be blared out by the media as 
the end of the one-child policy. What I'm saying is, it is not 
the end of the one-child policy. The core of the policy is the 
coercion, and they're not saying they're going to end that.
    Furthermore, all the reasons the Chinese Government has 
given for this adjustment are economic or demographic: China's 
dwindling labor force, the country's growing elderly 
population, the severe gender imbalance. The adjustment is a 
tacit acknowledgement that the continuation of the one-child 
policy has led, and will continue to lead, to economic 
disaster.
    The policy was originally instituted for economic reasons. 
It is ironic that through this very policy China has written 
its own economic death sentence. Even if China were to 
completely abandon the one-child policy and all population 
control now, demographers worry that it might be too little, 
too late to avert the demographic disaster already caused.
    As one researcher stated, ``Even if the family planning 
policy were terminated today it would be too late to solve our 
rapidly aging population, the drastic shrinkage of the labor 
force, and the gaping hole in social security funds that the 
country has already begun struggling with.''
    Despite the demographic pressure to end the policy, the 
Chinese Government, just this month, on the 10th of this month, 
denied that it has plans to implement a two-child policy. 
Continuing the one-child policy makes no demographic sense. 
China's population problem is not that it has too many people, 
it is that it has too few young people and too few women. 
Limiting births can no longer justify the policy.
    In addition, the most recent modification of the one-child 
policy has failed to produce the expected number of births, as 
couples are self-limiting the size of their families. Why then 
does the Chinese Communist Party keep the policy? I will 
attempt to explain the unexplainable. In my opinion, the 
Chinese Communist Party will never abolish the one-child policy 
because the government is exploiting the one-child policy as 
social control masquerading as population control.
    The one-child policy was formally instituted on September 
25, 1980, in response to a population explosion under the Mao 
era where fertility rates rose to 5.9 children per woman. The 
one-child policy began as a means to control this population, 
however brutal and misguided.
    The terror that forced abortion and involuntary 
sterilization had was a by-product of a population control 
policy. Now that keeping the policy makes no demographic sense, 
I believe that terror has become the purpose of the policy.
    Forced abortion continues in China, terrifying both women 
and men. Some of these forced abortions have been so violent 
that the women themselves have died along with their full-term 
babies. Forced abortion is so terrifying that victims become 
shattered emotionally, and sometimes succumb to mental illness. 
China has the highest female suicide rate of any country in the 
world.
    Men also are terrorized. Some men have been killed or 
maimed for life. Others have lost control and murdered family 
planning officials. Some men have resorted to suicide in 
protest over the excessive fines imposed by the government. The 
spirit of the Cultural Revolution lives on in the family 
planning police, who have been able to steal, intimidate, 
torture, and kill with relative impunity.
    The Chinese Communist government is a brutal totalitarian 
regime. It has many human rights abuses. The detention and 
torture of human rights lawyers, activists, and journalists, 
religious persecution, the execution of prisoners to harvest 
their organs for transplant, just to name a few. However 
egregious, each of these human rights violations touches only 
one sliver of society. The one-child policy is unique in that 
it touches everyone.
    So the one-child policy is uniquely the way that the 
government in Beijing can take its arm and extend it and touch 
the womb of every single woman in China and declare life or 
death over that child, and that is a way of extending its reign 
of terror over the entire nation. That's the first reason I 
think that they're not going to abandon the policy.
    The second reason is that the one-child policy is 
enormously profitable for the Chinese Communist Party. The one-
child policy system of fees and fines is an important source of 
revenue for the Party. These fines are arbitrary and 
inconsistently applied throughout China and can be as much as 
ten times a person's annual salary.
    Very few can afford to pay these terror fines, and in high-
profile cases the fines may run into the millions of dollars. 
It has been estimated that the Chinese Communist Party has 
received as much as $314 billion since 1980 in family planning 
fines.
    The use of these fines is not subject to accountability so 
they can be used simply to line the pockets of the family 
planning officials or fund other government projects under the 
table. This system or lack thereof is a strong incentive for 
them to keep the policy.
    The third reason I think that the Chinese Communist Party 
will never abandon the policy is that the one-child policy's 
infrastructure of coercion can be turned to crush dissent of 
any kind. There is growing dissent inside of China--now I quote 
from previous congressional testimony--``Internal Chinese law 
enforcement data on so-called mass incidents, a wide variety of 
protests ranging from sit-ins, to strikes, to marches and 
rallies, and even genuine riots, indicated that China has seen 
a sustained, rapid increase in those incidents, from 8,700 in 
1993 to nearly 60,000 in 2003, to more than 120,000 in 2008.'' 
Meanwhile, there are as many as 1 million family planning 
officials.
    This army of family planning officials can be turned in any 
direction to crush dissent of any kind. By the way, if China's 
family planning officials were an army they would tie with 
North Korea as the sixth largest army in the world.
    The last reason that I think that the Chinese Communist 
Party will not abandon the one-child policy is that they use 
the one-child policy to break relationships of trust. In 
addition to the family planning police, there are employed a 
system of paid informants so that a woman who is pregnant can 
be informed on by her neighbors, her friends, her co-workers, 
people in the village who are simply hired to watch women's 
abdomens to see if someone might be pregnant and then see if 
she's carrying a birth permit.
    Then in addition, if a woman flees because she's illegally 
pregnant, there are instances where the Chinese Communist Party 
will detain and torture her family. What this does, is it 
ruptures every kind of relationship of trust in society, which 
is very useful to the Chinese Communist Party because if you 
can't trust anyone you can't organize for democracy.
    In conclusion, I believe that the Chinese Communist Party 
is maintaining its grip on power through the one-child policy 
by shedding the blood of innocent women and babies of China. 
China's one-child policy is the largest and most disastrous 
social experiment in the history of the world.
    Through it, the Chinese Communist Party boasts that they 
have prevented 400 million lives, which is greater than the 
entire population of the United States and Canada combined. 
This is the hallmark of Communist regimes, the peacetime 
killing of their own citizens.
    So in terms of policy recommendations, we respectfully 
request that the U.S. Government urge the Chinese Government to 
abolish the one-child policy and end all forms of coercive 
population control, and offer incentives for couples to have 
girls.
    Women's Rights Without Frontiers has a ``Save a Girl'' 
program where we go and basically encourage women to keep their 
daughters and offer them a monthly stipend to keep their 
daughters, and empower them to keep their daughters. We have 
found that it takes very little to actually save the lives of 
baby girls in China.
    Number three, offer pensions to couples who do not have a 
son, ensuring that parents of girls will not become 
impoverished in old age. Number four, abolish the hukou system 
so that all children will have access to healthcare and 
education.
    In addition, we respectfully request that the U.S. 
Government establish principles of corporate responsibility to 
ensure that U.S. corporations do not allow coercive family 
planning in their factories in China and also de-fund the UNFPA 
[United Nations Population Fund] unless and until the UNFPA 
stops supporting and participating in the management of a 
program, a coercive abortion or involuntarily sterilization in 
China, in violation of the 1985 Kemp-Casten amendment. Thank 
you.
    Chairman Smith. Ms. Littlejohn, thank you very much for 
your testimony, your work, and for your recommendations, all of 
which will be taken very seriously by this Commission. So, 
thank you.
    We are joined by Robert Pittenger, a gentleman from North 
Carolina, who has been an outspoken advocate of human rights 
and has spoken on Chinese human rights in particular in a very 
effective way. I'd like to yield to him, if he has any opening 
comments.
    [The prepared statement of Ms. Littlejohn appears in the 
appendix.]

STATEMENT OF ROBERT PITTENGER, A U.S. REPRESENTATIVE FROM NORTH 
                            CAROLINA

    Representative Pittenger. Thank you so much, Chairman 
Smith, and for your dedication and leadership in the 30 years 
that I have been with you and known you. Thank you to each of 
you who have come today to give testimony to the realities that 
are so grievous to all of us in China.
    I'd like to just understand that China's rapid rise on the 
global stage does not come without cost, including China's 
strong disregard for human rights and well-being of its people. 
This issue is close to my heart, as I have been deeply involved 
in efforts to protect the rights of the Chinese people, support 
their religious expression for over 30 years.
    While population control policies are not unique to China, 
China's policies are particularly egregious and are some of the 
most heavily enforced in the world. These population control 
policies have fractured communities, exacerbated gender-based 
biases and violence, and caused irreversible damage to the 
stability of the population.
    Enforcement of population control policies at the local 
level has led to reports of traumatic violations of individual 
rights, forced abortions and sterilizations, and increased 
human trafficking to counter over-population of males. China 
must repeal these horrific policies not only for the well-being 
of their people, but in order to protect the sustainability of 
their already aging population.
    The United States must remain committed to human rights of 
all peoples and hold our counterparts around the world 
accountable for their violations. We must promote the repeal of 
population control in China and across the world.
    I look forward to hearing more of your testimony, and I 
yield back.
    Chairman Smith. Mr. Pittenger, thank you very much for your 
leadership for these many years.
    I'd like to now yield to Chai Ling.

       STATEMENT OF CHAI LING, FOUNDER, ALL GIRLS ALLOWED

    Ms. Chai. Thank you, Chairman Smith, and thank you for your 
tireless effort to end the one-child policy for the past 35 
years, for upholding human rights for all people in China and 
in the world. Thank you, Ranking Congressman, for your support 
and care for our country and our people.
    The title of my testimony today is, ``In Jesus' Name, I 
Declare the One-Child Policy Will End, and Will End Soon.'' I 
am honored to be invited to be a part of this distinguished 
panel, and I will focus on the following three subjects: The 
brutal nature of the one-child policy; how the one-child policy 
is being dismantled by the Lord one-by-one and step-by-step by 
His faithful workers; and how gendercide can also be ended in 
such a way.
    I know the brutal nature of the one-child policy. When I 
was first asked about that, it was June 1990, when Congressman 
Chris Smith asked me during my first U.S. congressional 
hearing, after I came out from Tiananmen Square I spent 10 
months in hiding. Congressman Chris Smith asked me, ``Does 
anybody know about the one-child policy? '' I thought, does not 
everybody--all know about one-child policy?
    Congressman Smith said, ``No, not everybody knew.'' The 
truth was one child per family. Those three words sound so 
benign and perfect. Only decades later I realized even I did 
not know the true meaning of it either and the true nature of 
this policy was, indeed, all the other children must die. How 
they must die can be explained by the following story.
    This woman on the screen, her name is Zhang Wen Fang. She 
was nine months' pregnant with her second child. She was 
dragged into a forced abortion clinic. She fought so hard to 
save her baby's life, she was injected with deep anesthesia.
    By the time she woke up not only had she lost her baby, she 
also lost her uterus and her entire health, her relationship--
with the baby's father--and her job. So from a vibrant, healthy 
mother and young entrepreneur, she was turned into this 
homeless, jobless, and disabled petitioner for justice.
    The next picture is a picture of a forcefully aborted baby 
who was dumped in a water bucket. Cases like Zhang Wen Fang and 
a baby like this were numerous because, even according to the 
Chinese Government's own admission, they have eliminated 400 
million babies. That's 400 million of forced and coerced 
murders like this story. So it is, indeed, the largest crime 
against humanity on Earth and a pure evil.
    It was at Congressman Chris Smith's hearing in November 
2009 that my eyes were opened up to the nature of the one-child 
policy and I realized how, like many others, I had also been 
fooled all these years. But after I led the Tiananmen movement 
and paid a severe price for it, including continually living in 
exile as of today, I know from personal experience to try to 
end China's one-child policy not only needs commitment, 
endurance, experience, perseverance, courage, all these human 
attributes we can name, but it also needs something bigger, 
much bigger, to overcome this massive evil.
    My finding was revolutionary to me, and I ask for 
forgiveness up front if you find my testimony uncomfortable in 
any way. I don't mean to offend anybody, but as for me, I could 
no longer live the life that I lived before by trying to pursue 
justice and freedom, seeking to do good only on my own back.
    I did find the big thing, and that is God. So shortly after 
the hearing, Ms. Reggie Littlejohn led me to the Lord through 
Christ Jesus and I was able to be restored to life and to carry 
on the fight for freedom and justice.
    In June 2010, I founded All Girls Allowed. In the past few 
years, we have fought against and tried to end the one-child 
policy in a very different way than what I did in 1989 at 
Tiananmen Square. It was an Abraham, Moses, David vs. Goliath 
kind of walk with the Lord.
    We experienced these verses taught in Sunday School in our 
walk, in our daily walk with the Lord, verses like ``With 
people, this is not possible. But with God, all things are 
possible.'' And ``Do not overcome evil with evil, but overcome 
evil with good.'' ``If you abide in me and my words abide in 
you, ask whatever you wish and it will be done for you. My 
Father is glorified by this, that you bear much fruit and still 
prove to be my disciple.''
    Our experience has shown that these verses are not only 
true, but possible in our fight to end the one-child policy. I 
understand other witnesses may say that the Chinese Government 
may never end the one-child policy, but you know what? They're 
not in control. God is! And His faithful are! Under God's 
mighty plan, that one-child policy will come to an end.
    God is not a deity up there in the air with no interest in 
the suffering in China, so our work in the past has shown the 
good news that God has overcome all suffering. That is the true 
meaning for me, the cross: God has conquered all evil through 
the power of Jesus Christ's death on the cross.
    So with that, it means that not only can we confront the 
one-child policy, with God we can also overcome it and end it. 
The truth is, the one-child policy is ending step by step.
    So this is what happened. In November 2011 in Rome, I had a 
powerful personal experience with the Lord. As I was crying out 
for the policy to come to an end I felt the words of Jesus in 
the Beatitudes, ``Blessed are those who are hungry and thirst 
for righteousness, for they will be satisfied.'' I felt Jesus 
come down, wept and said, ``If nobody else on Earth would do 
it, I will--that is, end it.''
    So in December 2011, I went to a conference, a mission 
conference in Los Angeles, and there a lady who had the gift of 
listening from God and declared God is starting the work of 
ending the one-child policy beginning in 2012.
    So in June 2012, a disciple of an American missionary 
couple learned about the Choose Life message and called 500 
Chinese pastor leaders to repent to God, to forgive others and 
ourselves for actions of forced and coerced abortions, just as 
the Lord promised, ``If My people, who are called by My name, 
will humble themselves and pray and seek My face and turn from 
their wicked ways, then I will hear from Heaven and I will 
forgive their sins and will heal their land.''
    So the next day, the very next day, June 13, 2012, the 
story of the young mother and the forcibly aborted baby 
picture--it's going to be graphic, so I apologize for that--was 
released on the Internet and it caused 90 million people to 
bombard the Internet to protest against this brutal policy.
    Within a month, on July 22, 2012, the outcry against the 
policy had caused China's Family Planning Committee to declare 
absolutely stopping the late-stage forced abortions. They were 
silent on early-stage forced abortions. Within months, 23 
provinces adopted that policy on their Web sites. Ever since 
then we have found very few cases, much fewer cases--we only 
found one case who had a forced abortion. When our workers 
called them, they immediately compensated the family.
    By June 1, 2014, 800,000 Chinese believers had received the 
teaching of the ``Choose Life'' message. That means they 
learned that life starts from conception. In China in general, 
people thought abortion is just taking a piece of tissue out of 
the body. So when that message was taught to them, repentance 
and crying out went throughout the land.
    So November 14, 2013, the Chinese announced they would ease 
the one-child policy to even further relax the condition of the 
two-children policy.
    So in 2015, China already had 1 million babies registered 
for birth certificates--as second children registered birth 
certificate for a second child, and by January 13, 2015, more 
than 600,000 babies had been born as second children, and 
that's just as big as the entire city population of Boston.
    As you can see, the pictures they promote in the stories 
are no longer a couple with a boy picture, the boy has been 
replaced by a baby girl now in this picture. They're all 
wearing pink. It's the same color here with our logo. We have 
seen this movement continuing to take place, this is the 
timeline of how the policy has been adopted province by 
province.
    But April 5, 2015, Xinhua Net announced that China would 
promote a full two-children policy with no conditions. 
Recently, some Family Planning Committee leaders tried to 
refute the chatters, but we know the end is coming near.
    So our recommendation is we urge the Chinese leader to make 
the decision to end the one-child policy once and for all and 
make it an all-children-allowed policy. We invite American 
leaders to join us to embrace this message and support this 
message on June 1 and to declare it on China's Children's Day.
    Regarding gendercide, as we all know, the one-child policy 
is a massive evil, but they also have a lot of side 
consequences. It produced massive gendercide. One of every six 
baby girls are aborted or killed. A gender imbalance: 37 
million extra men that will not find wives.
    Sex trafficking. Sixty percent of worldwide trafficking, 
sex trafficking, is taking place in China. Children without 
hukou--13 million. Aging populations show that in 15 years 
China is going to have a population with 400 million people 
over 60 years old. A large percentage of women suffer forced or 
coerced abortions; this shows 86 percent of the women had at 
least one abortion.
    Domestic violence. Thirty percent of families reported 
domestic violence. Sexual assaults against women and children 
are very high. The UN number is 74 percent. A high percentage 
of young couples under 35 are getting divorced, and 500 women 
commit suicide daily.
    With these social issues, our work to expose, rescue, and 
heal in the name of Jesus by Simply Love Her has also proven 
fruitful in the past five years. Two thousand mothers and 
babies have been helped by our ministry. Many babies that would 
not have been born otherwise, especially baby girls, have been 
able to be saved.
    More encouragingly, we also saw the Chinese Government 
recently, at least from the reports, saying that they are also 
giving financial incentives to families and couples to try to 
incentivize them to have baby girls.
    But our experience is ``just money alone is not enough.'' 
The family needs to change the concept to know that men, women, 
girls and boys are all made in the image of God, and because of 
that, we shall cherish them equally, treat them equally. So our 
recommendation is to end the gendercide by adopting an all-
girls-allowed policy.
    So, thank you very much.
    Chairman Smith. Ling, thank you very much. Thank you for 
your witness. Very often people forget what drives so many of 
us in human rights work, and for me as well. It is my faith in 
Jesus Christ. So I want to thank you for that very strong 
witness as to the why of it, and we are people who believe that 
faith and works--faith without works is dead, but faith with 
works can accomplish a great deal. Even if we have a mustard-
seed-like faith, it does take a great God to bring it to 
fruition. So, thank you for that.
    I would like to now introduce a great human rights 
defender, a man who suffered four years--over four years--in 
prison for defending women, particularly in Linyi, who had been 
forcibly aborted, by taking up their cause. His epic escape, I 
think, is without parallel.
    The whole country, the world, was riveted as you made your 
way, Mr. Chen, to the U.S. Embassy and when you were, sadly, 
given over to the Chinese Government, and then finally, after a 
great deal of attention brought to your case, released so you 
can live in freedom, you, your wife Weijing, and your children.
    You have mentioned over and over again, and this Commission 
remains steadfast in speaking out on behalf of your nephew and 
your other family members who remain in China, and so know that 
there's a good, strong bipartisan commitment forever, however 
long it takes, to your family as well. Thank you for speaking 
out so boldly on behalf of human rights, and especially for 
those who are suffering the utter cruelty of the one-child-per-
couple policy.
    Chen Guangcheng.
    [The prepared statement of Ms. Chai appears in the 
appendix.]

  STATEMENT OF CHEN GUANGCHENG, DISTINGUISHED FELLOW IN HUMAN 
    RIGHTS, SIMON CENTER ON RELIGION AND THE CONSTITUTION, 
WITHERSPOON INSTITUTE; DISTINGUISHED VISITING FELLOW, INSTITUTE 
FOR POLICY RESEARCH AND CATHOLIC STUDIES, CATHOLIC UNIVERSITY, 
                  VIA INTERPRETER JAMES CHENG

    Mr. Chen. Dear Mr. Chairman, dear Senators, 
Representatives, and Commission members, I am honored to be 
here today to testify before the Commission about the 
conditions and suffering of women in China.
    Let me start with listing the birth control slogan from 
some of the following provinces to address the issue of violent 
birth control in China, which is a matter of life and death. 
But China's birth control policy is breaking down the 
traditional morality of the Chinese society.
    In Hunan province, for example, they have a slogan that 
says, ``All Villagers Must Be Sterilized Once a Single Villager 
Violates the Birth Quota.'' In Anhui province they say, ``We'd 
Rather See 10 More Tombs Than a Single Baby Born Alive.'' In 
Jiangsu, they say, ``We'd Rather See a River of Blood Than a 
Single Baby Born Alive.'' In my home province, Shandong, they 
said, ``We'd Rather See a Broken Home Rather Than a Collapsed 
Country.''
    From these slogans you can definitely see a clear picture 
of the bloody and brutal violence resulting from China's birth 
control policy and practices. I remember back in the summer of 
1982 that a village Party chief said, while at rest,

        ``During the birth control movement I went to see a 
        friend who had just had an abortion in the hospital.
        ``After wandering to the backyard of the hospital, I 
        saw an old man trying to remove a pile of dead babies 
        in his two drums, and spades pressing down the bodies 
        when it was almost full. I saw some of the babies with 
        hair, noses, ears, and some just taking the shape of a 
        person, and all sorts of them being carried away to 
        somewhere for burial.''

    As you know, birth control in China is almost like taboo, 
and nobody dares to touch the nerve. To achieve its goal of 
population control, the Chinese Government and the Communist 
Party has established a vast control and planning policy system 
to carry out this project. The Party has also signaled to those 
on the ground the jailing, beating, and eviction, and 
demolishing and other policies are not beyond the red line, 
even at the cost of life.
    In my own village and the neighboring villages we often 
heard and saw groups of people, from a dozen to several dozens, 
and headed by the local Communist Party chief, acting like 
bandits and beating villagers and holding them without any 
legal procedures day and night. We could hear screaming and 
crying during those operations.
    I volunteered to help the villagers with my legal knowledge 
in the hope of stopping and preventing such brutal actions from 
the government, and yet I found the law was useless in trying 
to stop these illegal and inhuman practices. The Party 
committee had ordered local law enforcement authorities like 
the police department, and prosecutors, and the judiciary 
department not to get involved in any of these cases involving 
violent birth control situations.
    The propaganda officials ordered the media not to report 
any of these violations. So whenever these kinds of human 
rights violations occurred, the villagers could want to help, 
want to get help from the police, but they were told that this 
is a government action and beyond the scope of their work. The 
police refused to intervene.
    When a complaint was made to the local prosecutor, it was 
turned down. Even when such a suit was filed in local court, it 
would be rejected with no further consideration. Therefore, the 
media was also not allowed to report so local folks could 
really not find a place to obtain justice. Once such a layman 
was driven to such desperation by lack of hope, he would resort 
to violence. Only when such violence happened, you would see 
the law enforcement flooding in as a tool of the human rights 
violation at the will of the Communist Party.
    As you probably know, in China a married couple must seek a 
permit from the government before pregnancy. With such an 
official document in hand, the couple can then think of having 
a baby. If pregnant without such a permit, the woman would be 
summoned and forced to report to a local birth control service 
station.
    If these Communist bandits failed to get the pregnant woman 
to submit to the abortion operation, then they would take away 
the family members, like their uncles and aunts, and siblings, 
and even their neighbors with force, and also in cruelty. They 
were coerced into fighting between and among each other and 
they were forced to tell the whereabouts of the pregnant women. 
That kind of coerced fighting between them caused great strife 
among these relatives, even hatred.
    What is worse, when they were detained illegally for a 
period of time they had to pay, like 50 to 100 yuan a day, 
which is what, about $10 to $20, in the name of the so-called 
legal training fee. But this is, as a matter of fact, 
ironically that they pay for what they suffered during time at 
the illegal detention center of the Chinese Government, local 
government.
    Whenever a pregnant woman without a birth permit was forced 
into the birth control service station, she would be handed 
over a form, the so-called acknowledgement, purporting that 
such a kind of procedure like sterilization or forced abortion 
was done with her consent. If the pregnant woman refused to 
sign the form, against her own will, there would be several 
strong men to threaten her and say, ``Whatever you do, we just 
put you down in the operation room and have the operation 
done.''
    I'm sorry, I must describe a kind of abortion procedure in 
China which is a little bit graphic. During the first three 
months of pregnancy, a device would be inserted into the vagina 
and the fetus would be cut into pieces inside the womb and then 
pumped out.
    After six months of pregnancy, a poison is injected into 
the womb to kill the baby and then birth is induced to withdraw 
the baby from the body. Later in pregnancy, at six months or 
beyond, the birth is to be induced and the baby drowned in a 
water bucket, and sometimes it's brutal, as the doctor would 
break the neck of a baby and throw it into a trash bin.
    During the six-month period of 2005, there were more than 
130,000 forced abortions and sterilizations that took place in 
Linyi city alone, which is my hometown. More than 600,000 
family members suffered during this period. This brutality and 
these crimes against women and their families has brought 
irrevocable physical, spiritual, and psychological harm. There 
were 130,000 forced abortions in a six-month period in 2005, 
which is the correct number.
    Over the past 35 years, China has killed a total of 360 to 
400 million young lives as a result of its inhuman and violent 
birth control policy and practices. This brutality still goes 
on today. Despite Chinese Government propaganda of loosening 
control on the second child bearing for some couples in certain 
conditions, but with no significant change.
    Just a few days ago I got a case involving a man who was 
disabled due to the severe beating by the local government 
personnel just because his wife's sister had an extra or 
additional baby without a permit. This inhuman brutality of the 
birth control policy has resulted in society becoming 
indifferent to life and has diminished the dignity of human 
beings and has broken down the traditional morality of Chinese 
society on life-and-death matters, leading to social decay.
    The birth sex ratio is distorted as a result of the 
planning birth control policy of the Chinese Government. As an 
old Chinese saying goes, a single piece of wood burns long 
enough, so it's hard to raise a single child in a family.
    These so-called little emperors and little princesses have 
exhibited selfish character and weak and fragile psyches. Along 
with these issues, China is becoming an old and aging society, 
which is almost like a hidden bomb, with more than a million 
families who have lost their only child.
    A contemporary genocide is taking place in Communist China 
now. It is a horrific crime against humanity. I would make the 
following proposal. First, the U.S. Congress, the U.S. 
Government, and the administration, along with the 
international community, should take all steps necessary to 
stop this inhuman cruelty of the Communist Party of China.
    It should call for an international tribunal to investigate 
the crimes committed by the Communist regime in China and make 
Communist government officials accountable for their crimes 
against humanity, particularly this kind of family planning 
leading to genocide. To be more specific, those tombs for 
burying those babies, because of the population and abortion, 
coerced abortions, can be found in today's China.
    Second, the United States should ban these criminal 
Communist officials from China from entry into the United 
States, and their property in this country should be forfeited. 
These officials, including the former Security Chief of the 
Communist Party Zhou Yongkang, who has been arrested, actually, 
on charges of various crimes, and the second is Zhang Gaoli, 
who is the former governor of Shandong province and now is the 
first Vice Premier and Politburo member of the Communist Party.
    Also, Party Chief Li Qun, who is not only a practitioner of 
violent birth control bureaucracy, but is also a leading evil-
doer, persecuting my family there. These human rights violators 
who act against humanity must be made accountable.
    I want to thank you very much for all your support, for 
your tireless work all these years. Thank you so much for your 
care.
    [The prepared statement of Mr. Chen appears in the 
appendix.]
    Chairman Smith. Guangcheng, thank you very much for your 
leadership, for your very strong and powerful testimony.
    In 1984, I offered the first amendment to de-fund any 
organization, including the UN Population Fund [UNFPA], because 
of their complicity in these crimes against women, these crimes 
against humanity. It passed. Right after that, that became 
Kemp-Kasten, which is current law. Yet, the administration 
refuses to de-fund the UNFPA, despite their complicity in these 
crimes against women.
    You have made such a powerful call that this is genocide, 
and I do hope that people in this city and in capitals all over 
the world, and at the United Nations recognize this for what it 
is: it is genocide, the systematic destruction.
    The way the Genocide Convention reads, it is in whole or in 
part, this is a very large part and gendercide, the killing of 
young girls, baby girls simply because they're female--and I 
know that Nicholas Eberstadt had done much work on that, as you 
all have in the past. Yet, there is very little being done 
today to combat this, especially at our government level.
    Let me just say a couple of things and then I'll yield to 
my colleagues. I do believe there is breathtaking indifference 
and outright enabling. Has our Nobel Peace Prize-winning 
President, President Obama, defended women and children from 
China's one-child-per-couple policy? I haven't heard it. It was 
several of us who asked, when he met with President Hu and then 
Xi Jinping, to raise this issue. There's been nothing, 
deafening silence. This testimony of all of you hopefully will 
be a pivot. It's about time our government engaged this human 
rights atrocity that's occurring.
    Guangcheng, your call for an international tribunal. Where 
is the United Nations, their treaty bodies, whether it be the 
International Covenant for Civil and Political Rights or the 
Human Rights Council, why have they been so silent? 
Occasionally there's been a mere mention of this somewhere 
buried on page 54 of a universal periodic review, but nothing 
that is commensurate with the gravity of this genocidal act 
that is being committed. So I thank you for that call for the 
tribunal, for labeling this, the genocide, for what it is.
    On the visa ban, we have a visa ban, and President Obama is 
not enforcing the law. It couldn't be more clear. I have the 
language of the law right here in front of me. It couldn't be 
more clear. Any complicity--denial of entry into the United 
States for foreign nationals engaged in establishment or 
enforcement of forced abortion or sterilization policy. It's 
been the law of the United States since the year 2000. It has 
not been enforced. It has to be enforced.
    Yesterday, I chaired on the Global Magnitsky Act, which I 
am the prime sponsor of, so that we'll take the lessons learned 
from the Magnitsky Act and the good work it has done toward 
Putin's government and those who killed Sergei Magnitsky.
    Well, we already have this law. Why is this not being 
implemented? We've got to ask that question. I hope our friends 
over at the press aisle will ask that question: Mr. President, 
why are you not enforcing this important law?
    One question about the bribes. Reggie, you brought up that 
huge amount of money. Not bribes, the fines. I would suspect on 
top of that would be the bribes paid under the table at times 
to try to plead for the life of the child. Then there's the 
confiscation of property and valuables when they expand their 
efforts to go after the family members. As you pointed out, 
Guangcheng, the man that you just heard about that was beaten 
and is now disabled because of his sister-in-law who had a 
child that was not allowed by the government of China. 
Punishment, punishment, punishment. That's all we hear. And yet 
when the Chinese Government sends their representatives here to 
the United States, we treat them with kid gloves and do not 
raise these issues in any meaningful way. That, too, has to 
change.
    Finally, your point, Guangcheng, about the slogans, and 
perhaps others might want to speak to this. Even if tomorrow 
there was no one-child-per-couple policy, they have so 
propagandized and done a political coercion, if you will, 
starting from the youngest levels of a child's life. Better 10 
More Tombs Than a Single Baby Born, one of the signs you 
mentioned, Guangcheng. We'd Rather See a River of Blood Than a 
Single Baby Born. What prejudice against the life of a child 
who is so defenseless and so at risk that the government, the 
strong arm of a dictatorship, could come down so hard.
    I remember Harry Wu wrote a book and the title was, 
``Better Ten Graves Than One Birth,'' very similar to what you 
just mentioned a moment ago. This is madness. The fact that the 
elites, especially, have refused--it's politically correct not 
to raise this issue.
    I raise all the human rights issues, as do my colleagues 
here. We care about all the human rights issues: torture, the 
Internet censorship, and all the other issues. But here we're 
talking about an assault on women, children, the family, and 
even the relatives.
    I'd like to yield to my colleagues for any comments they 
might have, and then if you could respond to any of these 
comments or points that you would like.
    Mr. Franks?
    Representative Franks. I don't think there's anything I can 
add to what Chris has already said. It reflects my perspective 
completely. We have a bill here in the Congress right now that 
we should be hopefully passing in the next month: Pain Capable, 
which will protect children late in gestation in utero.
    Then we're going to be hopefully taking up another bill 
that will deal with sex-selection abortions in America. I can't 
express to you how important I believe your perspective and the 
information that we will have from China and the people at this 
table will be to that debate because it is one that the 
American people overwhelmingly are with us on.
    It's just a matter of being able to overcome the pro-
abortion perspective of saying, ``Oh, no, this isn't really 
happening, this isn't really true.'' You know how it is, this 
is the way they do it. So I just can't tell you how important I 
think all of you are to that effort. That's really how I became 
acquainted with some of you when we were trying to do this 
before, but persistence will prevail, by the grace of God.
    And again, I thank every one of you for what you're doing. 
I hope you don't grow weary in well-doing. You are doing a good 
thing. Sometimes those of us at this podium like this are 
three-fourths exhausted because we had an all-night mark-up, 
but we believe so strongly in what you're saying and that's why 
we're here.
    I hope you know that somehow the truth has a way of getting 
through. Always throughout history when people were able to 
finally see the humanity of the victims and the inhumanity of 
what was being done to them, even the hardest heart was 
changed. So, be encouraged. It's going to happen. God bless 
you.
    Chairman Smith. Thank you, Chairman Franks.
    Before yielding to Randy, as the author of both of those 
two bills, one deals with pain capable babies. We know beyond 
any reasonable doubt that at 20 weeks the child feels 
excruciating pain, and that applies to American babies who are 
killed, that applies to the Chinese babies who are suffering 
those later-term abortions, in that case under coercion.
    On the sex-selection abortion, Chairman Franks was able to 
muster a majority of House Members to vote for his bill and 
that debate--you know, it's a little bit on the side here, but 
it's not because of sex-selection being a terrible consequence 
of the one-child-per-couple policy, one of the consequences. To 
hear people who claim to be in favor of women's rights defend 
the selection of a child in utero for extermination simply 
because she is a girl is the height of hypocrisy.
    Randy?
    Representative Hultgren. Thank you again, Chairman. Thank 
you all for being here. Very, very powerful and so much for us 
to think about, to pray about, to figure out how we can best 
impact and again work together to save lives, to turn this 
horrible, horrible tragedy around, unthinkable tragedy.
    I do have a couple of questions, if I could open it up to 
any of you for response on this. Just from the title of 
Guangcheng's statement of how violent birth control in China is 
breaking down the traditional morality of Chinese society, I 
want to just hear your thoughts of a domino impact of 
gendercide, of forced abortion, and how something or somewhere 
someone must have thought this was a good idea, and yet how 
destructive it has been for morality, but also for the family, 
for the future, and now it almost feels like this desperation 
to try and react.
    But it almost feels too late without, Chai Ling, as you 
said, a heart change. We had a group that had the opportunity 
to remember George Washington, and even some of the prayer that 
has happened by leaders of our nation in the past. We had a 
group of us that had an opportunity to pray last night. But 
just for me the thought that we do have strong arguments and 
changing minds needs to happen, but also changing hearts and 
how we do that.
    So I'm rambling, but would love to hear from you, or want 
to hear from you, of some of the domino impacts, I guess, of 
breaking down of morality and how that has impacted, I guess, 
other parts of Chinese society and what we can do to turn that 
back around again. Is there hope to turn that back around 
again?
    Ms. Chai. Yes. I absolutely believe there's a hope. That 
hope is really to understand and to know God through Jesus 
Christ and also to understand what life is, when it begins. So 
what we found most exciting about this whole battle, is my life 
was changed when I saw a baby fetus model and an ultrasound 
picture. I never knew that. I myself had four abortions, three 
were coerced and one I did not know better.
    So when we shared this little fetus model in China, in the 
church community, it had a profound impact and caused powerful 
change. People just crawled on the floor just weeping because 
they did not know the fetus is a life and is a growing baby. In 
their own hand, we have allowed this--forced and coerced 
abortions--to happen to the most precious thing and--the baby--
is meant to be an inheritance from God.
    People called it tissue, called it a burden, called it 
something that would harm us. So when that teaching of Choose 
Life was happening, first the 500 pastors and leaders repented 
and God blessed with ending forced--late-stage forced abortion.
    When 800,000 people were educated, I believe God allowed it 
to come to a conditional two-children policy. This year, this 
summer, there's going to be 7 to 8 million people more that 
will be educated by the Choose Life message. There's a 
manufacturer working with us day and night trying to produce 
those baby fetus models. Even more powerful changes are coming.
    Another key concept is, I think as Chen Guangcheng 
mentioned, the slogans saying we would rather to have broken 
down families but save the nation. When I came to America, one 
thing very key for me was families and nations are not 
exclusive of each other but in the Chinese culture it has been 
a thousand years of this kind of demonic stronghold to say I 
can either have the family or I can have a nation, but I can't 
have both.
    I recently, in prayer to process these things, realized, 
wow, this stronghold was so deep in my own life as well. So 
what dawned on me is when Jesus Christ went on the cross He 
said ``I am doing my Father's will.'' He went up there to love 
his Father, but what he was also able to accomplish was the 
biggest thing to bring the Kingdom into the world.
    So in the biblical sense, the family is the nation and the 
nation cannot survive with broken families. So that is a 
concept I am hoping, through these kind of hearings and 
testimony, I believe the leaders of China are watching and I 
hope they will understand, too.
    Representative Hultgren. Let me ask a question, Reggie, if 
I could to you. To me, gendercide is so concerning. I'm just 
wondering, is there any movement of other groups, especially 
women's groups, of recognizing the threat of gendercide and the 
damage that's being done there? Is there something that you're 
seeing there, things again that we can do to see how damaging 
this is to our world, but also specifically to women, and to 
men as well, just the inequality that's there of 35 million, or 
I forget the exact number, of men who will not be able to have 
a spouse. So I just wondered if you're seeing anything there on 
gendercide of what we can be doing, again, to get more people 
involved.
    Ms. Littlejohn. [Inaudible.]
    Representative Hultgren. I guess, both. I would say both, 
or anywhere, I guess, where you would see hope or see 
opportunity.
    Ms. Littlejohn. Yes. But the thing is that----
    Representative Hultgren. Can you turn on your microphone?
    Ms. Littlejohn. You might be aware----
    Representative Hultgren. Can you turn on your microphone? 
I'm sorry.
    Ms. Littlejohn. Oh, I'm sorry. You might be aware of the 
five women who have recently been detained in China for doing 
something as really simple as just objecting to sexual 
harassment on public transportation. The women of China, they 
can't even take up the most uncontroversial cause, a cause that 
is something that even the Chinese Communist Party wants. I 
mean, the Chinese Communist Party isn't in favor of sexual 
harassment on public transportation, and yet they jail these 
women.
    The message, as I interpret it, is you cannot organize to 
do anything, we are the ones who are controlling everything. 
Even if you're trying to help us, we're going to slam you in 
jail because we don't want you to taking any initiative.
    So I am not aware of groups within China on Chinese soil 
that are attempting to combat gendercide. The Chinese 
Government is cracking down ever more strongly on anyone who 
wants to assemble for any reason, including reasons that the 
Chinese Government might even agree with.
    In India, there are some efforts to combat gendercide but 
they are really struggling. Actually, Women's Rights Without 
Frontiers wants to come to India. Congressman Chris Smith has 
hosted a showing of the ``It's A Girl'' film on Capitol Hill, a 
63-minute documentary. The first half hour is on India, the 
second half-hour is on China.
    So we have a successful campaign to save baby girls in 
China. We'd love to go to India, we'd love to show the film, 
we'd love to get on the news about that to combat the culture 
of gendercide there, because as it is right now, even in India, 
even though they don't have a totalitarian regime that is 
crushing any kind of women's movement, they have this intense 
shame.
    People do not talk about this. Really, somebody is going to 
need to go over there and show the film, get on television, get 
on radio, speak to people and get a movement to help people in 
India who are really struggling right now to combat gendercide.
    Representative Hultgren. Well, thanks. Again, we want to 
help with that.
    One last thing with the shame. I've got to think the 
medical community, hearing stories of doctors breaking necks of 
late-term babies, throwing them away, buckets of water to drown 
babies, there's got to be a shame level there with the medical 
community as well, who have been trained to save life and 
protect life, and yet clearly are destroying life so much here.
    But I'm going on too long, so I'll yield back. Thank you so 
much for all of your work. Please keep it up.
    Chairman Smith. Thank you very much.
    Mr. Pittenger?
    Representative Pittenger. Thank you, Mr. Chairman.
    Ms. Chai Ling, I certainly agree with you that changed 
lives, changed hearts is the ultimate need, that when Jesus 
Christ changed my life, that made everything else different. My 
work in the East has been related toward seeing people know 
Christ, so I do understand that.
    I would say that in our country we have seen at least an 
awareness, an openness, or recognition that the majority of the 
American people understand the brutality of late-term abortion 
and they gravitate to that. What I heard today from your 
testimonies--and please forgive me that I had to be in two 
hearings today and I had to come in and out.
    Sorry for that--but from what I heard when I've read, these 
are the most egregious, horrific crimes against humanity that 
you can hear. I think it is incumbent upon us as Members to 
share your story with our colleagues, to share it with our 
friends in the media, to build a better understanding of how 
horrific the entire one-child policy is and the brutal effect 
it has had on your entire society.
    So that's our work. Your ability to help us in that mission 
to continue, you've touched each of us today, all of you have. 
I am deeply grateful for the work that you do to bring us to 
this point. We have much more work to do, but I know each of 
these individuals on this panel very well and you have our 
heart and commitment to continue in this fight. God bless you.
    Ms. Chai. Thank you.
    Mr. Cheng. Mr. Chen would like to add.
    Mr. Chen. Let me add something. Before we knew that the 
Chinese women and other people have been fighting all the time 
against such kinds of brutal, violent birth control policies 
and practices, but with little effect. But in the past recent 
10 years or so, with the Internet available to the ordinary 
people, we see a different picture now.
    When I reported this kind of thing to the outside world and 
when they knew that I could offer some legal knowledge, they 
would come to me, even from 100 miles away. We find the 
Internet is a very, very powerful tool that the U.S. Government 
and the people around the world can take advantage of and to 
stand along with the Chinese people in fighting for this 
justice, to end this genocide. We want to see freedom of the 
Internet and the information flow into China and outside of 
China. So that will help everybody involved in the cause 
understand better how we could do a better job.
    Ms. Chai. I would like to add my recommendation to the 
American side. I know there are three additional bills that 
could really help to show a model to China on how they ought to 
change their culture of gendercide as well. One is the sex 
trafficking bill. I believe--I'm not sure if it's passed or in 
the process of being passed. Another one is the Girls Count 
Act. That bill would give children without hukou the 
opportunity to buy or purchase hukou. I highly encourage that 
bill to be passed.
    The third one is a campus safety and accountability bill. 
We learned that U.S. campuses that have 20 percent of the women 
being date raped or raped, and in a recent documentary called 
``The Hunting Ground,'' it showed that colleges and 
universities have become a hunting ground for women to be 
sexually violated. In China, as Reggie just mentioned, those 
five ladies, just for advocating for no more sexual harassment 
in a public area, were being detained. So to pass the campus 
safety bill would set a better campus culture and would 
definitely give an example for Chinese universities and 
colleges on how they ought to act. I believe once we change the 
culture, we can save lives and we can save women and children.
    Chairman Smith. Thank you.
    Before we conclude I just would like to ask Dr. Eberstadt, 
you know, Dr. Hudson spoke about, and you did as well, a 
ruthless son preference. I think there is an under-appreciation 
of how, when juxtaposed with--even though you say the empirical 
data is not fully there, if you're only allowed one and you 
have a son preference and it turns out the woman is carrying a 
daughter, the pressures will be very, very intense to ensure 
that she is not born and she is killed.
    Would you want to speak to that ruthless son preference 
issue? Because again, our hope is that many of the 
recommendations you make, if there's anybody listening in 
China--and there certainly are people, I think, who care. You 
interface with demographers who get it. They're heading toward 
an implosion economically, and societally, in terms of the 
break-up of the family.
    They cannot long sustain, even at the point of a barrel of 
a gun, the coherence of a nation when you have so decimated its 
foundation. It will implode. I don't think the leadership gets 
that yet, but if you could speak to that ruthless son 
preference issue.
    Mr. Eberstadt. Thank you, Congressman Smith. I have written 
elsewhere about what I've called the ``global flight from the 
family,'' which is a truly worldwide phenomenon. It may also be 
regarded as a flight by the strong from the weak. It has, I 
think, grave implications for the future.
    The global war against baby girls is something quite 
specific. I would observe that we know now, and Professor 
Hudson alluded to this, there's a way back from it. We've seen 
the existence proof that there's a way back from it from South 
Korea.
    What we saw in South Korea, I think, is the importance of 
civil society and the importance of faith-based groups, and the 
importance of engaging in a struggle for conscience. It worked 
in South Korea, I think it can work elsewhere.
    Chairman Smith. Would anybody else like to add something, 
colleagues or witnesses, before we close?
    Ms. Chai. Can we suggest to end the hearing with a prayer?
    Chairman Smith. Before we do that, I do want to ask 
unanimous consent that Marco Rubio, who is the Cochair of our 
Commission, that his full opening statement be made a part of 
the record.
    Without objection, that is so ordered.
    Please, if you could close with a prayer.
    [The prepared statement of Senator Rubio appears in the 
appendix.]
    Ms. Chai. Would that be okay? Yes. Dear Father, Lord Jesus, 
Holy Savior, we thank you for this wonderful opportunity to be 
together, to testify about the evil of the one-child policy and 
gendercide, and testify also about the triumph of Your 
victories. We thank you for Congressman Chris Smith's 
faithfulness and his team's hard work. We thank you for the 
other ranking congressmen's support on this issue, and all the 
distinguished witnesses, for their powerful testimonies.
    So God, we know things that are not possible with man but 
are possible with you, and all things are possible. You gave us 
power to bind and loose things. We are here in unity to declare 
that we bind the one-child policy and we loose the All Children 
Allowed policy in China, we bind up gendercide, we loose the 
All Girls Allowed Policy in China, in India, and in the entire 
world. In Jesus' name we pray, Amen.
    Chairman Smith. Amen. The hearing is adjourned.
    [Whereupon, at 4:29 p.m. the hearing was adjourned.]
                            
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                Prepared Statement of Nicholas Eberstadt

                             april 30, 2015
    Members of Congress, Distinguished Co-Panelists, Esteemed Guests:
    It is a pleasure and a privilege to be invited here today to 
testify on China's demographic evolution in the era of the One Child 
Policy.
    The general dimensions of what I have called ``the global war 
against baby girls\1\'' will, I am afraid, already be all too familiar 
to most of you, as will the general nature of that war as it has 
unfolded in China over the past three and a half decades.
---------------------------------------------------------------------------
    \1\ Nicholas Eberstadt, ``The Global War Against Baby Girls'', The 
New Atlantis, Fall 2011, available electronically at http://
www.thenewatlantis.com/publications/the-global-war-against-baby-girls .
---------------------------------------------------------------------------
    My testimony this afternoon will therefore simply attempt to 
provide a few updates on contemporary China's biologically un-natural 
sex ratio at birth, and some of the prospective questions arising from 
this artificially induced gender imbalance. My testimony will rely upon 
the graphs and tables that accompany this written statement.
    I wish to make four basic points in this statement:
    First: modern China's un-naturally high sex ratio at birth (SRB) 
can be understood as a social collision between three powerful forces--
ruthless and enduring son-preference; sub-replacement fertility, which 
perforce freights the gender of each birth with additional import for 
parents; and inexpensive, universally available prenatal gender 
determination technology in the context of an unconditional abortion 
policy.
    Ms. Anne Morse of the Population Research Institute has used US 
Census Bureau estimates of China's fertility levels and gender 
imbalances to illustrate vividly the strong correspondence between 
lower fertility levels and higher SRBs in China over the past 
generation. [SEE FIGURE 1] Of course this gender imbalance is 
effectuated through mass sex-selective abortion, which presupposes 
widely available and reliable information on the gender of every fetus. 
When the One Child Policy commenced in the early 1980s, sonography or 
ultrasound machines were only found in a tiny minority of China's 
nearly 3000 counties--mostly of course in urban areas. But by 1988, 
over 90 percent of China's counties possessed ultrasound machines. [SEE 
FIGURE 2] Thus by the time of China's 1990 census, all-China second 
births, third births, and all higher order births were reporting sex 
ratios of 120 or more [SEE FIGURE 3]--in contrast to the ``normal'' 
ratio of 103-105 typical of large established human populations, so far 
as we can tell, all around the world today and all throughout history.
    Its name notwithstanding, China's One Child Policy has never 
actually managed to enforce a one-child-only regimen over China as a 
whole: in recent years, by the estimates and projections of the US 
Census Bureau's International Data Base, China's total fertility rate 
has ranged between 1.5 and 1.6 births per woman per lifetime. In the 
1990s and early 2000s, to judge by officially reported census figures, 
sex-selective abortion was not common for first pregnancies in China: 
instead, parents intervened massively across the country with female 
infanticide at higher-order parities. According to the 2010 census, 
however, the SRB for first births had risen sharply: to almost 114 boys 
for every 100 girls. This, even as SRBs for some higher-births appear 
to have been significantly declining. In effect, sex-selective feticide 
in China appears to have been increasingly ``front-loaded'' with 
respect to birth parity in recent years: fewer first-time parents than 
in the past are apparently willing nowadays (2010) to take their 
chances with biologically-determined gender outcomes for their 
firstborn child.
    Please note that China's involuntary population control policy is 
neither a necessary nor a sufficient condition for biologically 
abnormal distortions of a modern society's sex ratio at birth. Un-
naturally high SRBs today are witnessed in culturally Chinese settings 
like Hong Kong and Taiwan; in parts of India and Pakistan; and in West 
Asian countries such as Georgia and Armenia. None of those societies 
maintains a forcible birth control policy. To the extent that China's 
One Child Policy successfully coerces parents into having fewer 
children than they would otherwise desire, however, we would expect 
such pressures to result in higher SRBs than would otherwise occur. In 
2007 Professor Zeng Yi, one of China's leading demographers, offered 
his judgment that approximately half of China's surfeit of baby boys at 
that time was due to the One Child Policy.\2\ He did not, however, 
explain how he derived that approximation. Exactly how much the One 
Child Policy contributes to China's SRB imbalance is a complex question 
to answer--and one that requires further scholarly investigation.
---------------------------------------------------------------------------
    \2\ Zeng Yi, ``Options for Fertility Policy Transition in China'', 
Population and Development Review, Volume 33, Issue 2 (June 2007), pp. 
215-246.
---------------------------------------------------------------------------
    Second: there is broad agreement among researchers of China's 
population trends that China's overall sex ratio at birth is no longer 
rising, and may indeed have begun to decline in recent years--but there 
remains some disagreement in expert circles about the actual levels and 
trends here, and these differences are for the moment essentially 
irresolvable given the non-trivial uncertainties and discrepancies 
contained in China's official demographic data.
    The two leading institutions that produce worldwide demographic 
estimates and projections at a national level are quite arguably the US 
Census Bureau, with its aforementioned continuously updated 
International Data Base, and the UN Population Division, with its 
biennially-revised ``World Population Prospects'' series. One can 
compare their estimates for China's sex ratio at birth for the One 
Child Policy Era. [SEE FIGURE 4] The Census Bureau and the UNPD present 
their data slightly differently: UNPD offers five year averages whereas 
Census gives year-by-year estimates or projections, and Census Bureau 
estimates only start with the year 1990 while UNPD series trace all the 
way back to 1950. (UNPD also includes Taiwan in its calculations for 
China, unlike Census Bureau IDB.) Nevertheless, it is apparent from 
Figure 4 that while UNPD and Census Bureau evaluations of levels in 
trends in SRB for China over the past generation are generally quite 
close, they are not identical. Their differences are most pronounced 
for the most recent years (2010-2015): by UNPD's projections, China's 
SRB for those years would have averaged 116, but Census' projections 
for that same period averaged about 112.
    Some of this difference may be explained by the fact that the 
Census Bureau's projections are more recent than UNPD's and therefore 
utilize more up-to-date information.\3\ But it is also true that the 
official Chinese demographic data that independent analysts must 
contend with can afford no certainty concerning sex ratios for those 
born throughout the One Child Policy Era--least so for small children.
---------------------------------------------------------------------------
    \3\ These UNPD estimates and projections are from the ``2012'' 
revision (released June 2013) for the ``World Population Prospects 
series; the ``2014'' revisions are expected later this year.
---------------------------------------------------------------------------
    The plain fact is that contemporary China does not yet have a vital 
registration system that provides accurate and comprehensive national 
data on annual births and deaths. Further, as Dr. Daniel M. Goodkind of 
the US Census Bureau has pointed out, there are discrepancies in 
demographic data from different official Chinese sources: census counts 
versus hospital records versus primary school enrollment records 
(primary schooling in theory being universal these days for children 7 
years of age). [SEE FIGURE 5] For example: where school enrollment data 
would have suggested a sex ratio at age 7 of about 110 for boys and 
girls born in 1993, China's 1995 ``mini-census'' placed their sex ratio 
at about 120. These are big differences.
    But even if we limit our gaze to official censuses and ``mini-
censuses'' (1% inter-censal sample surveys of the Chinese population) 
we see major discrepancies. [SEE FIGURE 6] The 2005 ``mini-census'' 
tells us that the sex ratio for two-year-old children was 125, but the 
2010 census says it was 119 for seven-year-old kids in 2010--even 
though the two year olds and seven year olds in question were all born 
in 1993. By the same token, the 2000 census places the sex ratio for 
children born in 1999 at nearly 123, while the 2010 census puts it at 
about 117. Cleary all these ratios are abnormally high--but such 
differences raise considerable questions about what the true underlying 
levels and trends in gender imbalance for China may be. Differential 
childhood mortality cannot account for such discrepancies.
    Part of the trouble here seems to be a varying undercount from one 
census to the next for China's children and youth. [SEE FIGURES 7 
THROUGH 9] For males and females born from the mid-1980s onward, 
China's successive censuses provide significantly different headcounts 
for any given birth year. The 2010 census, for example, offers a 
substantially higher headcount for population born in every year of the 
1990s than does the 2000 census. Notably, it is not only girls who seem 
to have been undercounted in the 2000 census--at least in light of the 
2010 census: boys also appear to have been undercounted. Such 
undercounts speak, among other things, to the incentives for parents to 
``conceal'' non-quota births when reporting those births might risk 
strictures or other penalties, including financial penalties. We may 
suspect that such strategic under-reporting of births has continued in 
recent years, insofar as the One Child Policy itself has continued. But 
trends and differentials in sex-specific under-reporting today remain a 
major unknown--and how experts treat this unknown necessarily have 
implications for calculated estimates and projections regarding current 
and future trends in gender imbalance in China.
    Third: China's imbalanced sex ratios at birth over the past 
generation already portend a virtually unavoidable ``marriage squeeze'' 
for the generation to come; but that ``squeeze'' may be even more 
severe than previously anticipated owing to a new trend just now 
beginning to emerge on the Mainland: a ``flight from marriage'' by 
young women.
    Today as in the past, China has embraced what might be called a 
``universal marriage norm''--and in recent decades, it has actually 
also achieved something close to universal marriage in practice. 
According to the 2000 China census, for example, just 3.8 % of men and 
a mere 0.2% of women in their early forties had never been married.\4\ 
But these were children of the pre-population control era. With rising 
SRBs and continuing sub-replacement fertility, any society with a 
``universal marriage norm'' must perforce be consigned to the prospect 
of substantial numbers of ``surplus grooms'' or effectively 
unmarriageable young men.
---------------------------------------------------------------------------
    \4\ UN Population Division, ``World Marriage Data 2012'', available 
electronically at http://www.un.org/en/development/desa/population/
publications/dataset/marriage/wmd2012/MainFrame.html.
---------------------------------------------------------------------------
    Professor Zeng Yi and his colleagues are among the demographers who 
have projected the prospective dimensions of this marriage squeeze for 
China in the decades immediately ahead. [SEE FIGURE 10] In a study from 
2008, their work suggested that about 25% of Chinese men in their late 
thirties, and over 20% of those in their early forties, would be never-
married by the year 2030. The growing army of unmarriageable males 
envisioned in their projections, it is important to note, was still 
predicated on the assumption of near-universal marriage for Chinese 
women.
    But that assumption is now being challenged by facts on the ground.
    Throughout the rest of East Asia, what has been dubbed a ``flight 
from marriage'' by women (and also men) has been underway for more than 
two decades.\5\ In both Japan and South Korea--but also in such 
quintessentially Chinese settings as Hong Kong, Macau, and Taiwan--
demographic data have been recording a pronounced and still-continuing 
tendency for women to postpone marriage to ever later ages--and, 
increasingly, to forgo marriage altogether. In all the societies so 
affected, the ``flight from marriage'' begins as an elite phenomenon, 
starting in large urban areas and in the strata with the highest 
educational attainment--then, gradually or not-so-gradually, that elite 
fashion becomes a mass norm. In Japan and Hong Kong, for example, about 
23% of women in their late 30s were still single according to recent 
census counts (2010 and 2006 respectively), and about 17% of those in 
their early forties were likewise reportedly never-married. [SEE 
FIGURES 11 and 12]
---------------------------------------------------------------------------
    \5\ Cf. for example Richard Leete, ``The Continuing Flight from 
Marriage and Parenthood Among the Overseas Chinese in East and 
Southeast Asia: Dimensions and Implications'', Population and 
Development Review, Volume 20, Issue 4 (December 1994), pp. 811-829; 
and Gavin W. Jones, ``The ``Flight from Marriage'' in South-East and 
East Asia,'' Asian Metacentre Research Paper Series, No. 11 (National 
University Of Singapore, 2003) available electronically at http://
www.populationasia.org/Publications/ResearchPaper/AMCRP11.pdf.
---------------------------------------------------------------------------
    As may be seen in Figures 11 and 12, Mainland China is a latecomer 
the East Asia's ``female flight from marriage'' party. Contemporary 
China's ``female flight from marriage'' has thus far been more hesitant 
than those of other postwar East Asian locales even after controlling 
for income: as may be seen, the proportions of still single women in 
their late thirties and early forties for China in 2010 were notably 
lower than for Singapore, Taiwan and Hong Kong when those societies had 
levels of GDP per capita comparable to China 2010. [SEE FIGURES 12 AND 
13] But incipient signs of a ``flight from marriage'' by women are now 
evident in China, the country's impending ``marriage squeeze'' 
notwithstanding.
    Figures 15 through 17 document the first hints of such trends. [SEE 
FIGURES 15 THROUGH 17] The tendency for Chinese women to postpone, or 
forgo, marriage is only just becoming visible at a national level: less 
than 2% of women in their late thirties were never married as of the 
2010 census. But that fraction is decidedly higher than in previous 
decades. And just as in the rest of East Asia, the tendency for women 
to postpone marriage, or avoid it altogether, is emerging first in the 
China's major metropolitan center and in the most educated segments of 
Mainland society. Although the national average share of never married 
women ages 35-39 in China in the 2010 census was reported at 1.8%, it 
was 5.1% in Beijing--still low by current East Asian standards, but 
nevertheless roughly three times the national average. Within Beijing, 
furthermore, nearly 9% of women in their late thirties with some 
college or post-secondary education were never married as of 2010--as 
were roughly 18% of those women in their early thirties. This is 
precisely what an East Asian ``flight from marriage'' by women would 
look like in its early stages.
    At this juncture we cannot tell how fast, or how far, the tendency 
to postpone marriage, or forgo it altogether, will progress in Mainland 
China. But such a trend is already definitely evident. And to the 
extent that this trend unfolds further, the magnitude of the 
``unmarriageable male'' problem can be expected correspondingly to 
intensify over the coming generation.
    Fourth: while the human rights implications of China's One Child 
Policy are well known and widely documented, the question of the 
program's actual demographic impact is rather less straightforward. 
Exactly how much has involuntary population control shaped (or warped) 
contemporary China's population structure? There is no immediate, easy 
answer here because history does not allow re-runs: we do not know what 
China would look like today if Beijing had never enacted that terrible 
social experiment.
    It may suffice here to note, however, that the East Asian rim today 
exhibits some of the world's very lowest fertility levels--all in 
places that have never toyed with compulsory birth control. In recent 
years, Japan has reported ``snapshot'' (i.e., period) total fertility 
rates below 1.3 births per woman; South Korea's at times has dropped 
below 1.2; and in some years Hong Kong, Macau and Taiwan have all 
reported TFRs of less than one birth per woman. In this context, 
fertility levels for contemporary China--or even just for contemporary 
urban China--do not look extraordinarily low.
    So we may reasonably ask: Has forcible population control 
accelerated modern China's fertility decline? Would fertility levels 
really be higher today without the program? Is it possible they would 
have been even lower? The simple truth of the matter is: we cannot 
really address these immense issues with any great confidence as of 
yet. From a methodological perspective, estimating the net demographic 
impact of China's police state population policy presents an 
exceedingly difficult analytical challenge. There are of course a 
number of approaches that could be pursued--but none is without its 
limitations. Such a project, however, in my view strongly merits active 
pursuit--not least so we may have some sense in advance of the 
magnitude of demographic responses that will be elicited when the One 
Child Policy is finally scrapped.
[GRAPHIC] [TIFF OMITTED] T4474.001

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
                                 

                Prepared Statement of Reggie Littlejohn

                             april 30, 2015
    Honorable members of the Commission, Representative Chris Smith, 
Senator Marco Rubio, distinguished fellow panelists, ladies and 
gentlemen, I am grateful for this opportunity to testify here today, as 
we commemorate the 35th anniversary of China's brutal One Child Policy.
    I have been asked to comment upon ``China's insistence on keeping 
the One-Child Policy, despite looming demographic concerns.''

China has not ``eased,'' ``relaxed'' or ``abandoned'' the One-Child 
                    Policy, Despite Reports

    China periodically tweaks its One Child Policy. These minor 
modifications are routinely exaggerated. For example, under the 
misleading headline, ``China to Ease One-Child Policy,'' Xinhua News 
Agency reported that China would lift the ban on a second child, if 
either parent is an only child, beginning on January 1, 2014. It was 
already the case that couples could have a second child if both parents 
were themselves only children. This minor adjustment did not ``ease'' 
the One Child Policy. It merely tweaked it.
    Indeed, in apparent response to quell overly optimistic speculation 
that this small change represents a major reform, Xinhua ran another 
report soon after the original announcement: ``Birth Policy Changes Are 
No Big Deal.'' In this second article Xinhua states that Wang Pei'an, 
deputy director of the National Health and Family Planning Commission 
(NHFPC), told Xinhua that ``the number of couples covered by the new 
policy is not very large across the country.'' \1\
---------------------------------------------------------------------------
    \1\ ``Birth policy changes are no big deal.'' http://
news.xinhuanet.com/english/indepth/2013-11/16/c_132893477.htm. 11/16/
13.
---------------------------------------------------------------------------
    The minor modification of the policy that took place on January 1, 
2014: 1) did not affect a large percentage of couples in China; 2) was 
not subject to a timetable in which to implement it; 3) retained the 
dreaded ``birth intervals'' between children (if a woman gets pregnant 
before the interval has lapsed, she risks forced abortion); and 4) 
makes no promise to end the coercive enforcement of the Policy.
    Noticeably absent from the Chinese Communist party's announcement 
is any mention of human rights. Even though it will now allow some 
couples to have a second child, China has not promised to end forced 
abortion, forced sterilization, or forced contraception. The coercive 
enforcement of China's one-child policy is its core. Instituting a two-
child policy in certain, limited circumstances will not end forced 
abortion or forced sterilization.
    The problem with the one-child policy is not the number of children 
``allowed.'' Rather, it is the fact that the CCP is telling women how 
many children they can have and then enforcing that limit through 
forced abortion and forced sterilization. Even if all couples were 
allowed two children, there is no guarantee that the CCP will cease 
their appalling methods of enforcement. Regardless of the number of 
children allowed, women who get pregnant without permission will still 
be dragged out of their homes, strapped down to tables, and forced to 
abort babies that they want.
    Further, instituting a two-child policy will not end gendercide. 
Indeed, areas in which two children currently are allowed are 
especially vulnerable to gendercide. According to the 2009 British 
Medical Journal study of data from the 2005 national census, in nine 
provinces, for ``second order births'' where the first child is a girl, 
160 boys were born for every 100 girls. In two provinces, Jiangsu and 
Anhui, for the second child, there were 190 boys for every hundred 
girls born. This study stated, ``sex selective abortion accounts for 
almost all the excess males.''
    To say that China has ``relaxed'' or ``eased'' its One Child Policy 
under these circumstances is entirely unwarranted.\2\ Because of this 
gendercide, there are an estimated 37 million Chinese men who will 
never marry because their future wives were terminated before they were 
born. This gender imbalance is a powerful, driving force behind 
trafficking in women and sexual slavery, not only in China, but in 
neighboring nations as well.
---------------------------------------------------------------------------
    \2\ ``China's One-Child Policy `Reform' Won't End Abuses: US 
Group.'' http://www.rfa.org/english/news/china/
policy07232014161119.html. 7/23/14; ``China Hasn't `Eased' Its One-
Child Policy.'' http://www.nationalreview.com/corner/364200/chinahasnt-
eased-its-one-child-policy-reggie-littlejohn. 11/18/13; ``China Not 
Easing One Child Policy, Says Campaigner.'' http://www.zenit.org/en/
articles/china-not-easing-one-child-policy-says-campaigner. 11/22/13; 
``Little Change in Practice for China's One Child Family Policy.'' 
http://www.washingtontimes.com/news/2013/nov/24/little-change-in-
practice-for-chinas-one-childfam/?page=all. 11/24/13.
---------------------------------------------------------------------------
    Furthermore, all the reasons the Chinese government has given for 
this adjustment are economic or demographic: China's dwindling labor 
force, the country's growing elderly population, and the severe gender 
imbalance. The adjustment is a tacit acknowledgement that continuation 
of the one-child policy will lead to economic and demographic disaster. 
The policy was originally instituted for economic reasons. It is ironic 
that through this very policy, China has written its own economic, 
demographic death sentence.
    Even if China were to completely abandon the One Child Policy and 
all population control now, demographers worry that it might be too 
little, too late to avert the demographic disaster it has caused. As 
one researcher stated, ``Even if the family-planning policy were 
terminated today, it would be too late to solve our rapidly ageing 
population, the drastic shrinkage of the labour force and the gaping 
hole in social-security funds that the country has already begun 
struggling with.'' \3\
---------------------------------------------------------------------------
    \3\ ``Critic of One Child Policy in from Cold.'' http://
www.scmp.com/news/china/article/1224885/critic-one-child-policy-cold 4/
28/13; ``Easing One Child Policy May Be Too Late.'' http://
yaleglobal.yale.edu/content/easing-one-child-policy-may-be-too-late. 1/
7/14.
---------------------------------------------------------------------------
    Despite the demographic pressure to end the policy, the Chinese 
government recently denied that it has plans to implement a two-child 
policy in the near future.\4\
---------------------------------------------------------------------------
    \4\ ``China denies full implementation of `two-child policy.'' 
http://www.chinadaily.com.cn/china/2015-04/10/content_20407560.htm. 4/
10/15.
---------------------------------------------------------------------------
    Continuing the One Child Policy makes no demographic sense. China's 
population problem is not that it has too many people, but too few 
young people and too few women. Limiting births can no longer justify 
the policy.
    The One Child Policy will turn 35 on September 25, 2015. The 
fertility rate has fallen to approximately 1.5 children per woman, far 
below the replacement level of 2.1. These birth rates are dangerously 
low.
    In addition, the most recent modification of the One Child Policy 
has failed to produce the expected number of births, as couples are 
self-limiting the size of their families.\5\ Why, then, does the 
Chinese Communist Party keep the One Child Policy?
---------------------------------------------------------------------------
    \5\ ``Why China's New Family Planning Policy Hasn't Worked.'' 
http://thediplomat.com/2015/04/why-chinas-new-family-planningpolicy-
hasnt-worked/. 4/20/15.
---------------------------------------------------------------------------

1) In my opinion, the Chinese Communist Party will never abolish the 
                    One-Child Policy, because the government is 
                    exploiting the One Child Policy as social control, 
                    masquerading as population control.

    The One Child Policy was formally instituted on September 25, 1980 
in response to the population explosion under the Mao era, when the 
average fertility was 5.9 children per woman. The One Child Policy 
began as a means to control the population, however brutal and 
misguided. The terror of forced abortion and involuntary sterilization 
was a by-product of the Policy.
    Now that keeping the Policy makes no demographic sense, I believe 
that terror is the purpose of the Policy. Forced abortion continues in 
China, terrifying both women and men.\6\ Some of these forced abortions 
have been so violent that the women themselves sometimes die along with 
their full term babies.\7\ Forced abortion is so terrifying that 
victims at times succumb to mental illness and China has the highest 
female suicide rate in the world.\8\
---------------------------------------------------------------------------
    \6\ ``China Couple Speak of `Forced Abortion.''' http://
news.sky.com/story/1150016/china-couple-speak-of-forced-abortion 10/4/
13; ``Four Uyghur Women Forced to Abort Their Babies in Zinjiang.'' 
http://www.rfa.org/english/news/uyghur/abortion12302013050902.html; 
``Xinjiang authorities try to force six women to abort for violating 
one-child policy.'' http://www.asianews.it/news-en/Xinjiang-
authorities-try-to-force-six-women-to-abort-for-violating-one-child-
policy-29925.html. 12/30/13
    \7\ ``China Couple Speak of `Forced Abortion.''' http://
news.sky.com/story/1150016/china-couple-speak-of-forced-abortion 10/4/
13; ``Four Uyghur Women Forced to Abort Their Babies in Zinjiang.'' 
http://www.rfa.org/english/news/uyghur/abortion12302013050902.html; 
``Xinjiang authorities try to force six women to abort for violating 
one-child policy.'' http://www.asianews.it/news-en/Xinjiang-
authorities-try-to-force-six-women-to-abort-for-violating-one-child-
policy-29925.html. 12/30/13.
    \8\ ``Forced abortion at 7 Months - The Horror of China's One Child 
Policy Sparks Further Outrage.''http://www.christianpost.com/news/
forced-abortion-at-7-months-the-horror-of-chinas-one-child-policy-
sparks-further-outrage101764/ 8/7/13; ``Chinese couple seeks damages 
for forced abortion.'' http://www.worldmag.com/2014/01/
chinese_couple_seeks_damages_for_forced_ abortion 1/10/14.
---------------------------------------------------------------------------
    Men also are terrorized. Some have been killed or maimed for 
life.\9\ Others have lost control and murdered family planning 
officials.\10\ Some men have resorted to suicide in protest over the 
excessive fines imposed by the government.\11\ The spirit of the 
Cultural Revolution lives on in the family planning police, who have 
been able to steal, intimidate, torture and kill with relative 
impunity.
---------------------------------------------------------------------------
    \9\ ``China: Family Planning Official Stabs Man to Death,'' http://
www.womensrightswithoutfrontiers.org/blog/?p=147. 4/5/11.
    \10\ ``Crazed Chinese father-of-four stabs two government officials 
to death over one child policy.'' .'' http://www.dailymail.co.uk/news/
article-2376771/Chinese-father-kills-1-child-policy-officials-
registering-4th-child.html 7/24/13.
    \11\ ``Chinese father of four commits suicide over one-child policy 
fines so his children can go to school.'' http://www.lifesitenews.com/
news/chinese-father-of-four-commits-suicide-over-one-child-policy-
fines-so-his-c. 5/26/14; ``Farmer drinks poison after being fined for 
violations of family planning policy.'' http://www.globaltimes.cn/
content/830847.shtml 12/8/13
---------------------------------------------------------------------------
    The Chinese Communist Party is a brutal, totalitarian regime. It 
has many human rights abuses: the detention and torture of human rights 
lawyers, activists and journalists; religious persecution, the 
execution of prisoners to harvest their organs for transplant. However 
egregious, each of these abuses touches only a sliver of Chinese 
society. The One Child Policy is unique in that it touches everyone.

2) The One Child Policy Is Enormously Profitable for the Chinese 
                    Communist Party.

    The One Child Policy's system of fees and fines is an important 
source of revenue for the Chinese Communist Party. These fines are 
arbitrary and inconsistently applied throughout China, but may be as 
much as ten times a person's annual salary. Very few can afford to pay 
these ``terror fines.'' In high profile cases, the fines may run in the 
millions of dollars.\12\
---------------------------------------------------------------------------
    \12\ ``Zhang Yimou's children spark one-child policy debate.'' 
http://en.people.cn/90782/8236414.html. 8/8/13.
---------------------------------------------------------------------------
    It has been estimated that the Chinese Communist Party has received 
as much as $314 billion in family planning fines since 1980.\13\ The 
use of these fines is not subject to accountability, so they may be 
used simply to line the pockets of the family planning officials or to 
fund other government projects under the table. This system (or lack 
thereof) provides a strong incentive to keep the Policy in place.\14\
---------------------------------------------------------------------------
    \13\ ``The Brutal Truth: A shocking case of forced abortion fuels 
resentment against China's one-child policy.'' http://
www.economist.com/node/21557369. 6/23/12.
    \14\ ``Huge Fines for Violators of One-Child Policy, but Little 
Accounting.'' http://sinosphere.blogs.nytimes.com/2013/12/12/hugefines-
for-violators-of-one-child-policy-but-little-accounting/. 12/12/13; 
``Population Control Is Called Big Revenue Source in China.'' http://
www.nytimes.com/2013/09/27/world/asia/chinese-provinces-collected-
billions-in-family-planning-fines-lawyer-says.html. 6/26/13; ``China 
has collected $3.1 billion from one-child policy violators so far this 
year.'' http://qz.com/154079/china-has-collected3-1-billion-from-one-
child-policy-violators-so-far-this-year/. 12/5/13; ``Chinese Family 
Planning Officials Misappropriated $260 Million in Fines.'' http://
www.theepochtimes.com/n3/293660-chinese-family-planning-officials-
misappropriated-260-million-infines/. 9/20/13.
---------------------------------------------------------------------------

3) The One Child Policy's Infrastructure of Coercion Can Be Turned to 
                    Crush Dissent of Any Kind

    There is growing unrest inside China. ``[I]nternal Chinese law 
enforcement data on so-called ``mass incidents''--a wide variety of 
protests ranging from sit-ins to strikes, marches and rallies, and even 
genuine riots--indicated that China has seen a sustained, rapid 
increase in those incidents from 8,700 in 1993 to nearly 60,000 in 
2003, to more than 120,000 in 2008.\15\ Meanwhile, there are as many as 
1 million Family Planning Officials.\16\ This army of Family Planning 
Officials can be turned in any direction to crush dissent of any sort. 
Does the Chinese Communist Party regard this army as necessary to 
maintain control in a tinder-box situation?
---------------------------------------------------------------------------
    \15\ ``China's Social Unrest Problem--Testimony before the U.S.-
China Economic and Security Review Commission.'' Murray Scott Tanner, 
Ph.D. http://www.uscc.gov/sites/default/files/Tanner--
Written%20Testimony.pdf. 5/15/14; see also, ``Rising Protests in 
China.'' http://www.theatlantic.com/photo/2012/02/rising-protests-in-
china/100247/. 2/17/12.
    \16\ ``Family Planning: Enforcing with a smile.'' http://
www.economist.com/news/china/21638131-enforcers-chinas-one-child-
policyare-trying-new-gentler-approach-enforcing-smile. 1/10/15. If 
China's Family Planning Officials were an army, they would tie with 
North Korea as the sixth 
largest army in the world. ``World's Largest Armies.'' http://
www.globalsecurity.org/military/world/armies.htm.
---------------------------------------------------------------------------

4) The One Child Policy Breaks Bonds of Trust, Discouraging Dissent

    In addition to official Family Planning Police, the One Child 
Policy employs a system of paid informants--``womb police.'' Anyone can 
inform on an illegally pregnant women--her neighbors, friends, co-
workers, people in the village who watch women's abdomens to see who 
might be pregnant. On May 15, 2012, I testified before the House 
Foreign Affairs Committee, Subcommittee on Africa, Global Health and 
Human Rights, together with Mei Shunping, a victim of five forced 
abortions. She described the way her factory enforced the One Child 
Policy. ``If one worker violated the rules, all would be punished. 
Workers monitored each other.'' The women became informed on one 
another. Predictably, friendships were destroyed.\17\
---------------------------------------------------------------------------
    \17\ ``Testimony of Mei Shunping, Victim of Five Forced Abortions 
in China.''
http://archives.republicans.foreignaffairs.house.gov/112/HHRG-112-FA16-
WState-ShunpingM-20120515.pdf. 5/15/12.
---------------------------------------------------------------------------
    In addition, if an illegally pregnant women runs away to escape a 
forced abortion, members of her extended family may be detained and 
tortured.\18\ This puts enormous pressure on the woman to give herself 
up for an abortion. The system of paid informants and the persecution 
of family members and neighbors rupture the natural bonds of love and 
trust in Chinese society. People feel that there is no one they can 
trust.
---------------------------------------------------------------------------
    \18\ Testimony of ``Wujian,'' Tom Lantos Human Rights Commission, 
11/10/09.http://www.womensrightswithoutfrontiers.org/
index.php?nav=cases&nav2=wujian#anchor
---------------------------------------------------------------------------
    Could the Chinese Communist Party be exploiting this rupture in 
relationship to divide and conquer? If people cannot trust anyone, they 
cannot organize for democracy.

Conclusion

    In my opinion, the Chinese Communist Party will not relinquish 
coercive population control because 1) it enables them to exert social 
control through terror; 2) it is a lucrative profit center; 3) it 
provides and infrastructure of coercion that can be used to crush 
dissent of any sort; and 4) it ruptures relationships of trust, so that 
people cannot organize for change. I believe that the Chinese Communist 
Party is maintaining its grip on power by shedding the blood of the 
innocent women and babies of China.
    China's One Child Policy is the largest and most disastrous social 
experiment in the history of the world. Through it, the Chinese 
Communist Party boasts that it has ``prevented'' 400 million births. 
This is the hallmark of Communist regimes--the peacetime killing of 
their own citizens. Now China faces demographic disaster. Ironically, 
the Chinese Communist Party instituted the One Child Policy for 
economic reasons, but through it, it has written its own economic death 
sentence.

Policy Recommendations:

    We respectfully request that the U.S. government urge the Chinese 
government to:
        <bullet> Abolish the One Child Policy and all forms of coercive 
        population control;
        <bullet> Offer incentives for couples to have girls; \19\
---------------------------------------------------------------------------
    \19\ We have found in our ``Save a Girl'' campaign that the 
encouragement of modest monetary support is enough to make the 
difference between life and death to a baby girl. ``Twin Girls Saved 
from Abortion in China, Husband's Family Only Wanted Boys.''http://
www.lifenews.com/2014/05/30/twin-girls-saved-from-abortion-in-china-
husband-family-told-wife-they-only-wanted-boys/ 5/30/14.
---------------------------------------------------------------------------
        <bullet> Offer pensions to couples who do not have a son, 
        ensuring that parents of girls will not become impoverished in 
        their old age; and
        <bullet> Abolish the hukou system, so that all children will 
        have access to healthcare and education.

    In addition, we respectfully request that the U.S. government:

        <bullet> Establish principles of Corporate Social 
        Responsibility, to ensure that U.S. corporations do not allow 
        coercive population control measures to be taken against their 
        employees; and
        <bullet> Defund UNFPA, unless and until UNFPA stops supporting 
        or participating in the management of a program of coercive 
        abortion or involuntary sterilization in China, in violation of 
        the 1985 Kemp-Kasten Amendment.
                                 ______
                                 
                                 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]                                 
                                                                 

                 Prepared Statement of Chen Guangcheng

   A Matter of Life and Death: How Violent Birth Control in China Is 
       Breaking Down the Traditional Morality of Chinese Society

                             april 30, 2015
    To address the issue of violent birth control in China, let me 
start by listing birth control slogans from some of the following 
provinces:

    In Yunnan: All villagers will be sterilized once a single villager 
violates the birth quota.
    In Sichuan: Anyone avoiding sterilization must be put in custody; 
anyone avoiding sterilization must be punished by bulldozing their 
house; anyone avoiding abortion shall surrender their cattle and house.
    In Anhui: We'd rather see ten more tombs than a single baby born 
alive.
    In Jiangsu: We'd rather see a river of blood than a single baby 
born alive.
    In Guangxi: An IUD must be secured after the first birth; 
sterilization must follow the second; the third and fourth must be 
killed.
    In Shandong: We'd rather see a broken home than a collapsed 
country. First birth is OK, the second must be followed by 
sterilization, or law enforcement steps in.
    From the above slogans, you can definitely get a clear picture of 
the bloody and brutal violence resulting from China's birth control 
policies and practices.
    Back in the summer of 1982, a village Party chief said while at 
rest, ``During the birth control movement, I went to see a friend who 
had just had an abortion in a hospital. After wandering to the 
backyard, I saw an old man trying to remove dead babies in his two 
buckets, and spades pressing down bodies. I saw some of the babies with 
hair, or a nose, or ears, some just taking the shape of a person . . . 
all sorts of them being carried away to somewhere for burial.''
    Birth control in China is taboo, as nobody dares to touch a nerve. 
To achieve its goal of population control, the Communist Party has 
established a vast system to carry out its policy. The Party has also 
signaled to those on the front line that jailing, beating, eviction, 
demolition and other such policies are not beyond the red line, even at 
the cost of life. In my village and neighboring villages, we could 
often hear and see groups of people, from a dozen to several dozen and 
headed by their local party chiefs, acting like bandits, beating 
villagers, and holding them in defiance of legal procedures, day and 
night. We could hear screaming and crying during these operations.
    I volunteered to help the villagers with my legal knowledge in the 
hope of stopping and preventing such brutal actions. Yet, I found out 
the law was useless in trying to stop these violent birth control 
practices. The Party committee had ordered local law enforcement 
authorities such as the police, the prosecutors, and the judiciary NOT 
to get involved in such cases.
    Whenever this kind of human rights violation occurred, villagers 
would call the police for help, but they were told that this was a 
governmental action, and beyond their scope of work, and so the police 
refused to intervene. When a complaint was made to a local prosecutor, 
it would be turned down; even when such a suit was filed in a local 
court, it would be rejected with no further consideration. Therefore, 
the local folks could not find a place to obtain justice. Once a layman 
was driven to such desperation by lack of hope, he would resort to 
violence. And only when such violence happened would you see law 
enforcement flooding in, tools of human rights violation at the will of 
the Party.
    In China, a married couple must first seek a permit from the local 
birth control committee before pregnancy. With such an official 
document in hand, the couple can then think of having a baby. If 
pregnant without such a permit, the woman would be summoned and forced 
to report to a local birth control service station, where a Communist 
party official would force her to sign a form of acknowledgement prior 
to a forced abortion, purporting that such a procedure (including 
sterilization) was done with her consent. Of course, NONE of these 
women are willing to lose their own babies, but rather are coerced to 
place their fingerprint on the form against their will.
    If these Communist bandits failed to get the pregnant woman to 
submit to a nighttime operation, then they would take away family 
members, relatives such as uncles and aunts, siblings, and even other 
neighbors within a diameter of 50 meter of the target, usually 
including 10-20 households, by force, often with cruelty. These 
relatives would be coerced into fighting before being taken away for 
illegal detention. Those who suffered would have to pay 50-100 yuan per 
day, which is about $10-$20, in the name of legal training fee. As a 
matter of fact, they have to pay for their suffering. This illegal 
detention and torture has caused great strife, even hatred, among 
relatives.
    Regarding forced abortion in China, during the first three months 
of pregnancy, a device shall be inserted into the vagina and the fetus 
cut into pieces inside womb, then pumped outside. Up to the sixth month 
of pregnancy, a poison shall be injected into womb to kill the baby and 
birth induced to withdraw the baby from out of the body. Late in 
pregnancy, at six months or beyond, birth is to be induced and the baby 
drowned in a water bucket. Sometimes, a doctor would break the neck of 
a baby and throw it into a trash bin.
    During a six-month period of 2005, more than 130,000 forced 
abortions and/or sterilizations took place in Linyi city ALONE; more 
than 600,000 family members suffered during this period. This brutality 
and these crimes against women and their families have wrought 
irrevocable physical, spiritual and psychological harm. Many families 
have lost hope and ended up broken.
    Over the past 35 years, China has killed a total of 360 to 400 
million young lives as a result of its inhumane and violent birth 
control policies. This brutality still goes on despite China's 
propaganda of loosening control on the second child bearing for some 
couples on certain conditions. Just a few days ago, I got a case 
involving a man who was disabled due to a severe beating by local 
government personnel just because his sister-in-law had had an 
additional baby without a permit.
    This inhumane brutality has resulted in society becoming 
indifferent to life and has diminished the dignity of the human being, 
thus breaking down the traditional morality of Chinese society on life-
and-death matters and leading to social decay. The ratio of the sexes 
to one another is distorted - as an old Chinese saying goes, a single 
piece of wood burns hardly long, so is hard to raise a single child in 
a family. These so-called little emperors and little princesses exhibit 
a selfish character and a weak and fragile psyche. Along with these 
social issues, China has becoming an aging society, with more than a 
million families who have lost their ONLY child. . .
    A contemporary genocide is taking place in Communist China now; it 
is a horrific crime against humanity. I would make the follow proposal:

          (1) The United States Congress, along with the international 
        community, should take all steps necessary to stop the inhumane 
        cruelty of the Communist Party; it should call for an 
        international tribune to investigate crimes committed by the 
        Communist regime in China, and make Communist officials 
        accountable for their crimes against humanity, particularly 
        this kind of genocide.
          (2) The United States should ban those criminal Communist 
        officials from entry into the U.S., and their property in this 
        country should be forfeit. These officials include former 
        security chief Zhou Yongkang (who has been arrested on charges 
        of various crimes); Zhang Gaoli (former governor of Shandong 
        Province, now first Vice Premier and Politburo member); and 
        Linyi City Party Chief Li Qun, who is not only a practitioner 
        of violent birth control, but also the leading evildoer 
        persecuting my family. These human rights violators who act 
        against humanity must be made accountable.

    Thank you very much for your attention to the worsening human 
rights situation in China.
                                 ______
                                 

  Prepared Statement of Hon. Christopher Smith, a U.S. Representative 
 From New Jersey; Chairman, Congressional-Executive Commission on China

                             april 30, 2015
    Today's hearing will examine the looming demographic, economic, and 
social problems associated with China's `One-Child Policy' and seek 
recommendations on how the international community can assist China to 
address them.
    China's one child policy is state sponsored violence against women 
and children, including and especially the girl child, and constitutes 
massive crimes against humanity.
    With us today is Chen Guangcheng, the Chinese legal advocate who 
was jailed for five years for trying to protect women facing forced 
abortions and sterilizations.
    In his testimony, Chen gets it right. He calls China's coercive 
population planning policies ``genocide.'' He calls for an 
international tribunal to investigate these crimes against humanity and 
calls on the Administration to enforce existing US law and bar Chinese 
officials from the U.S.
    In 1999, I wrote a law--The Admiral James W. Nance and Meg Donovan 
Foreign Relations Act for fiscal years 2000-2001. That bill was signed 
into law on November 29, 1999.
    Section 801 of Title VII of that Act requires the Secretary of 
State not to issue any visa to, and the Attorney General not to admit 
to the U.S. any foreign national whom the Secretary finds, based on 
credible evidence, to have been directly involved in the establishment 
of forced abortions or forced sterilizations.
    To the best of my knowledge under President Obama, almost one has 
been rendered inadmissible. It has been a gross failure of the Obama 
Administration not to enforce existing law, particularly on those in 
China who so brutally violate women's rights.
    The ``One Child Policy'' will soon mark its 35th anniversary. 
That's 35 years of telling couples what their families must look like; 
35 years of forced and coerced abortions and sterilizations, 35sx years 
of children viewed by the state as ``excess baggage'' from the day they 
were conceived.
    The human rights violations associated with this policy are 
massive. We have only recently begun to fully understand the 
demographic consequences and what that could mean for China, for 
China's neighbors, and for the world.
    Just over a year ago China announced a slight change to the 
policy--allowing couples in which one parents is an only child to have 
two children.
    The announcement was followed by a tidal wave of international 
media coverage trumpeting this ``relaxation of China's one-child 
policy'' and speculating that the policy was on its way out.
    The policy change was really only minimal and was grossly 
inadequate in light of the coercion the Chinese government has employed 
for three decades against women and children. Left unchanged was the 
Chinese government's strangle-hold on deciding who can have children, 
when they can have children and how many children a family can have.
    Left unchanged are the coercive measures and fines that can be 
taken if a woman is found to be carrying a child without permission. 
Left unchanged is the large bureaucracy that enforced and continues to 
enforce the policy of population control.
    The minimal change also does nothing to address the three decade 
decimation of female population. Approximately 40 million women and 
girls are missing from the population--a policy that can only be 
accurately described as gendercide. The extermination of the girl child 
in society simply because she happens to be a girl.
    China's birth limitation policy continues to increase the gender 
imbalance--making China a regional magnet for sex and bride trafficking 
of women from neighboring countries such as Burma, Cambodia, Vietnam, 
Laos and North Korea.
    This is unacceptable, it is horrific, it is tragic, and it is 
wrong. We are waiting for the coercive population planning polices to 
end. Yet, the Chinese government continues to deny there will be an 
end.
    Of course, ending this brutal policy would be the moral thing to 
do. And everyone is increasingly aware that ending this policy would 
also be in the Chinese government's interest.
    As the Economist noted just last week, by 2025, nearly 1 in 4 
Chinese citizens will be over the age of 60. At the same time, China's 
working-age population has shrunk in each of the past three years. 
These factors are likely to hurt not only government balance sheets but 
also economic growth in China. This should be of particular concern to 
the Chinese Communist Party, as economic growth is the primary source 
of their legitimacy.
    The government should also be concerned about the dramatically 
skewed gender ratio. It may be fashionable for the media the write 
stories about ``leftover women,'' but I know--and I'm quite sure the 
Chinese government knows--that its real problem is the 30 million young 
men who will be unable to find wives in the coming years.
    The government should be concerned--as should China's neighbors and 
the international community--of the consequences of 30 million men, 
unable to find companionship, unable to start families, coming of age 
precisely at the time that China's economy is creating fewer jobs to 
employ them.
    We continue to see increased human trafficking for forced 
marriages. NGOs working in Vietnam, Cambodia, and Burma have all 
reported an increase in trafficking of women and girls into China in 
recent years. Even if China ends the one-child policy tomorrow, given 
the current demographics, this problem of a shortage of women in China 
will only get worse in the coming decade.
    Given this current realities, it is frankly baffling that China 
would continue to implement its brutal policy of population control. 
This is a policy that is hated by the Chinese people, recognized as a 
drain on China's social and economic development, destructive of 
traditional family relationships, and criticized globally.
    China's women and girls have borne the brunt of the one-child 
policy over the past three and a half decades. All of China's society 
will feel the effects of this misguided and inhuman policy for decades 
to come.
    I urge the government to do what is right, not only of its people, 
but what is clearly in its own interest, and end this policy now.
                                 ______
                                 

 Prepared Statement of Hon. Marco Rubio, a U.S. Senator From Florida; 
        Cochairman, Congressional-Executive Commission on China

                             april 30, 2015
    I'd like to begin by thanking Chairman Smith for his unwavering 
leadership on this issue.
    Nearly 35 years ago, the communist regime in China enacted its 
``One-Child Policy,'' one of the most disastrous and immoral social 
policies in human history. It was the communist regime's ill-conceived 
``solution'' to help curb population growth and boost economic 
development.
    The One-Child Policy banned most Chinese couples from having more 
than one child. When couples conceived a second child, the Chinese 
government forced them to eliminate him or her, by any means 
necessary--including forced abortions. However, because of cultural 
norms that place a premium on boys, the policy's victims also included 
first-conceived children simply because they happened to be girls. In 
addition, Chinese women who gave birth to baby girls were indirectly 
victims of this policy because many ended up being shunned by their 
husbands, families, and society.
    For over three decades, China's One-Child Policy, combined with the 
preference for sons, has condemned an unknown number of Chinese girls--
who the policy helped deem unwanted or ``surplus''--to abortion, 
infanticide, and abandonment. The result is a radically skewed sex 
ratio, and--by the Chinese government's own estimates--30 million more 
men than women by 2020. No one knows for sure what such a large surplus 
of males will mean for Chinese society, but many experts have 
predicted, among other consequences, an increase in human trafficking 
for the purposes of prostitution and forced marriages. Many of China's 
neighbors can attest to this reality.
    China's One-Child Policy demands the attention of American 
policymakers not only because it is a grotesque violation of basic 
human rights, but also because there will be a growing number of 
involuntary bachelors and the likely impact this group may have on 
internal social unrest and broader regional stability.
    The One-Child Policy has also contributed to a large number of 
unregistered children in China. The Economist has done an excellent job 
of documenting in several reports in recent years, noting that today 
there are about 13 million Chinese who lack household registration 
certificates, many of them because they were born in violation of the 
One-Child Policy. While it is technically illegal to withhold 
registration from ``out-of-plan'' children, in practice, many local 
family planning officials refuse to register these children as a way to 
force parents to pay large fines. In other cases, parents who know they 
will be unable to pay family planning fines do not even try to have 
their so-called ``illegal'' children registered. Not having this 
certificate means they can't go to school, get a job, get married or 
receive state benefits. They have no access to China's already flawed 
legal system. They can't even escape this misery by buying plane or 
train tickets so they can relocate. Over time, failing to register 
children at birth leaves them vulnerable to human trafficking and 
exploitation.
    Just over a year ago, the Chinese government relaxed this 
disastrous policy. However, innocent Chinese parents are still forced 
to endure abortions and sterilizations in the parts of the country that 
are still subject to it. The shift in policy was not an admission that 
the government had perpetrated a horrific human rights abuse against 
its own people. Rather, it was based on the recognition that China now 
faces serious demographic decline in the coming decades if the status 
quo remains intact.
    I am actively trying to address both the problem of unregistered 
children and China's sex-ratio imbalance through legislation I've 
introduced called the Girls Count Act.
    The Girls Count Act would direct current U.S. foreign assistance to 
support the rights of women and girls in developing countries by 
working to establish birth registries in their countries. While China 
already has a birth registration system, the Girls Count Act includes 
provisions to coordinate with the private sector and civil society 
organizations to advocate for the registration of all children. Of 
course, the best way to ensure that all Chinese children are registered 
is to remove the fines and other punishments for ``out-of-plan'' 
children; however, until this happens, encouraging local NGOs to work 
with parents to register their children and, if necessary, to take 
legal action against local governments who refuse to register children, 
would be a positive step.
    In addition to the focus on registration, the Girls Count Act would 
support programs to help increase property rights, social security, 
home ownership, land tenure security, and inheritance rights for all 
citizens, and women in particular. Women in China often face difficulty 
protecting their property rights. In urban settings women may face 
pressure to keep their names off the deed of their home in order to 
allow their husbands to save face, while in rural areas women lose 
their land rights when they marry outside of their home villages. Yet 
as one of our witnesses today, Professor Hudson, will discuss, 
supporting property rights for women is crucial for raising the status 
of women and girls within the family and society as a whole. By working 
to raise the status of women, we can get at one root cause of the 
gender imbalances in China and elsewhere--the preference for sons. This 
Act is but one way we can address the societal consequences of China's 
disastrous One-Child Policy.
    Perhaps most regrettably, time and again this Administration has 
failed to prioritize human rights in its dealings with the Chinese 
government--at times going so far as to convey both indirectly, and 
directly, that these issues can be pushed to the sidelines in our 
bilateral relations. The Obama Administration has contributed millions 
of U.S. taxpayer dollars to the United Nations Population Fund, an 
agency which has been complicit in China's One-Child policy. It is time 
for American foreign policy to reflect American values. The U.S. must 
continue to advocate for the complete elimination of the One-Child 
policy and the rights of all Chinese citizens, including the unborn, to 
live up to their God-given potential.

                       Submission for the Record

                               __________

                      Population Control in China:

          State-Sponsored Violence Against Women and Children

                             april 30, 2015

                          Witness Biographies

    Nicholas Eberstadt, Ph.D., Henry Wendt Scholar in Political 
Economy, American Enterprise Institute

    Nicholas Eberstadt is the Henry Wendt Scholar in Political Economy 
at the American Enterprise Institute. A political economist and 
demographer by training, he is a senior advisor to the National Bureau 
of Asian Research, and has served on the visiting committee at the 
Harvard School of Public Health, the Global Leadership Council at the 
World Economic Forum and the President's Council on Bioethics. He has 
also served as a consultant to the World Bank, Department of State, 
U.S. Agency for International Development, and the Bureau of the 
Census. With numerous publications on demographics in East Asia, Dr. 
Eberstadt received his Ph.D., M.P.A., and A.B. from Harvard University, 
and his M.Sc. from the London School of Economics.

    Valerie M. Hudson, Ph.D., Professor and George H.W. Bush Chair, 
Bush School of Government and Public Service, Texas A&M University

    Valerie Hudson is Professor and George H.W. Bush Chair in the Bush 
School of Government and Public Service at Texas A&M University. Her 
co-authored book, Bare Branches: Security Implications of Asia's 
Surplus Male Population, received two national book awards and 
widespread media coverage for its unique insights into the possible 
consequences of Asia's gender imbalance. Dr. Hudson has developed a 
nation-by-nation database on women, The WomenStats Project, to 
facilitate empirical research on the status of women globally. She is 
founding editorial board member of Foreign Policy Analysis, and serves 
on the editorial boards of Politics and Gender, and International 
Studies Review. Dr. Hudson received her Ph.D. in political science at 
the Ohio State University.

    Reggie Littlejohn, Founder and President, Women's Rights Without 
Frontiers

    Reggie Littlejohn is Founder and President of Women's Rights 
Without Frontiers, a broad-based international coalition that opposes 
forced abortion and sexual slavery in China. Ms. Littlejohn is an 
acclaimed expert on China's One-Child Policy, having testified six 
times before the U.S. Congress, three times before the European 
Parliament, and presented at the British, Irish, and Canadian 
Parliaments. She has briefed officials at the White House, Department 
of State, United Nations, and the Vatican. Her ``Save a Girl'' campaign 
has saved more than 150 baby girls from sex-selective abortion or 
grinding poverty in China. A graduate of Yale Law School, Ms. 
Littlejohn was named one of the ``Top Ten'' people of 2013 by Inside 
the Vatican magazine. She and her husband are raising as their own the 
two daughters of jailed pro-democracy dissident Zhang Lin.

    Chai Ling, Founder, All Girls Allowed

    Chai Ling is Founder of All Girls Allowed (``In Jesus' Name, Simply 
Love Her''), a nonprofit organization which seeks to expose the 
injustices of China's one-child policy and rescue girls and mothers 
from gendercide. A leader in the 1989 Tiananmen Square student movement 
and Nobel Peace Prize nominee, Ms. Chai escaped from China and received 
her MPA from Princeton and MBA from Harvard. She is the founder of 
Jenzabar, a company that provides higher education software management 
solutions, and co-founder of the Jenzabar Foundation, which supports 
the humanitarian efforts of student leaders. Ms. Chai is also author of 
A Heart for Freedom, a memoir detailing her journey from a fishing 
village in rural China to Tiananmen Square and then America.

    Chen Guangcheng, Distinguished Fellow in Human Rights, Simon Center 
on Religion and the Constitution, Witherspoon Institute; Distinguished 
Visiting Fellow, Institute for Policy Research and Catholic Studies, 
Catholic University

    Chen Guangcheng is a Chinese legal advocate and activist. Mr. Chen 
is from rural China, where he advocated on behalf of people with 
disabilities, and exposed and challenged abuses of population planning 
officials, including forced abortions and sterilizations. Mr. Chen was 
imprisoned for his activism for four years. Following two years of 
house arrest, Mr. Chen escaped confinement in 2012 and came to the U.S. 
with his family. His now famous escape from China is detailed in a 
recently published memoir, The Barefoot Lawyer: A Blind Man's Fight for 
Justice and Freedom in China. In addition to his positions at the 
Witherspoon Institute and Catholic University, Mr. Chen is also a 
Senior Distinguished Advisor to the Lantos Foundation for Human Rights 
and Justice.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
